<html>
<title> - THE BALKANS: POLICY RECOMMENDATIONS FOR THE NEXT ADMINISTRATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     THE BALKANS: POLICY RECOMMENDATIONS  
                     FOR THE NEXT ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 8, 2020

                               __________

                           Serial No. 116-141

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-496PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                       

                      COMMITTEE ON FOREIGN AFFAIRS

ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                  

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Albright, Hon. Madeleine K., Former Secretary of State...........    11
Serwer, Dr. Daniel, Director, American Foreign Policy, Director, 
  Conflict Management, School of Advanced International Studies, 
  Johns Hopkins University.......................................    17
Bugajski, Mr. Janusz, Senior Fellow, The Jamestown Foundation....    23

                                APPENDIX

Hearing Notice...................................................    67
Hearing Minutes..................................................    68
Hearing Attendance...............................................    69

                   STATEMENT SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Connolly..    70

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Omar............................................    72

 
    THE BALKANS: POLICY RECOMMENDATIONS FOR THE NEXT ADMINISTRATION

                       Tuesday, December 8, 2020

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 10:20 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the committee) presiding.
    Chairman Engel. The Committee on Foreign Affairs will come 
to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point. All members will have 5 
days to submit statements, extraneous materials, and questions 
for the record, subject to the limitation in the rule. To 
insert something into the record, please have your staff email 
the previously circulated address or contact full committee 
staff.
    As a reminder to members, staff, and others physically 
present in this room for guidance from the Office of Attending 
Physician, masks must be worn at all times during today's 
proceedings, except when a member or witness is speaking.
    Please also sanitize your seating area. The chair views 
these measures as a safety issue, and, therefore, an important 
matter of order and decorum for this proceeding.
    For members participating remotely, please keep your video 
function on at all times, even when you are not recognized by 
the chair. Members are responsible for muting and unmuting 
themselves, and please remember to mute yourself after you 
finish speaking.
    Consistent with House Resolution 965 and the accompanying 
regulations, staff will only mute members and witnesses as 
appropriate, when they are not under recognition, to eliminate 
background and noise.
    I see that we have a quorum, and I now recognize myself for 
opening remarks.
    When I entered Congress over 30 years ago, more than 
anything else the majority leader at the time, Tom Foley, who 
was later to become Speaker, asked what my top three choices 
for committee assignments would be. I told him Foreign Affairs, 
Foreign Affairs, and Foreign Affairs. For as long as I could 
remember, I had followed the Middle East, the cold war, and, of 
course, like everyone from my generation, the Vietnam War. But 
little did I know the passion I would develop for a small 
corner of Europe called the Balkans. Sure, I knew about 
Yugoslavia. They hosted the Olympics in 1976. World War I 
started there. But beyond that, my knowledge was somewhat 
limited.
    Yet, days after I was first elected to the House in 1988, I 
was visited in my Bronx office by my now-close friend, Harry 
Bajraktari. Harry told me of a place called Kosovo, or Kosova, 
in Yugoslavia, which was populated largely by Albanians. 
Confused, I asked him how this place could find itself Kosovar 
or Yugoslavian or Albanian. Thus began my education about a 
region for which I am now considered an expert, the Balkans.
    I have traveled to every country in the Western Balkans 
several times, met with so many leaders from so many parties, 
and come to love the rich variety of cultures, ethnicities, and 
religions. But no place has touched my heart more than Kosovo.
    My first days in the House of Representatives in 1989 were 
followed shortly thereafter by a now infamous speech by then-
Serbian leader Slobodan Milosevic. That speech is seen by many 
as the beginning of several years of war and ethnic cleansing, 
ending with the breakup of Yugoslavia, and the creation of 
seven independent countries.
    I spent many of my first years in the House of 
Representatives with a small, bipartisan group of Congress 
Members, fighting the horrors. Only a few of us still Serbia 
today--Steny Hoyer, myself, Pete King, Alcee Hastings--but our 
efforts never had a partisan flavor. We stood together on the 
House floor, we traveled to the region, and we demanded 
American leadership to end the killing.
    In many ways, American involvement in the Balkan Wars of 
the 1990's was the pinnacle of our post-cold war power and 
influence. It also represented how such leadership can be put 
to good use. We stopped the killing and, along with our NATO 
allies, stepped in with peacekeepers to prevent the brutality 
from recurring. We stopped genocide in Europe cold.
    In Bosnia, the conflict ended with the Dayton Accords, and 
in Kosova, most of the world moved to recognize the new 
republic. But while we did so much good, we did--there also 
remains a large amount of unfinished business, not only in 
those two countries, but throughout the region, demanding 
American leadership and closer work with our European partners.
    I would like to start in Kosova. First, the good: Kosova is 
an independent country, and it has been for more than a decade. 
Frankly, if you run the clock back three decades, this was a 
mere dream. I never thought I would actually utter those words, 
but today, Kosova has joined the World Bank and the IMF. And 
more than 110 other countries recognize its independence, 
including, of course, the United States, the United Kingdom, 
France, Germany, Japan, and so many other important nations.
    Kosovars are showing up as leaders in a variety of 
professions, including some world-famous popular singers and 
soccer players and in my hometown of New York City, as 
successful real eState owners, popular restaurateurs, and so 
much more.
    Yet, the end of the story has not been written, and serious 
challenges remain. Most importantly, it is time for Serbia to 
move on. Kosova is independent. It is never going back. 
Frankly, blocking Kosova's recognition in places around the 
world and its membership in the United Nations only holds up 
Serbia, because its bid to join the European Union will not be 
approved until it recognizes Kosova.
    So I call upon Serbia to get on with it, so all of the 
people of the region, regardless of nationality, ethnicity, or 
religion can take their rightful place as citizens of Europe, 
alongside their French, German, Italian, and other brothers and 
sisters across the continent.
    You know, but I am very, very proud of what we did in 1999. 
We prevented genocide on the European Continent and that is a 
major, major undertaking and something which we should be very 
proud of. But it is not the end of the discussion. So many 
people were killed then, 1999, disappeared, maimed, and raped, 
during the Kosova War. And justice remains a long way off. We 
had a hearing not long ago in this committee about the 
atrocities committed against Albanian women during the 1999 
problems.
    Justice remains a long way off. In Serbia, bodies are still 
emerging from mass graves. Of Kosova, Albanians struck back and 
quickly buried to hide the magnitude of the crime. Three 
Americans, the Bytyci brothers, were among those murdered. The 
families of these victims deserve justice, but have been given 
little, if any.
    The International Criminal Tribunal for the former 
Yugoslavia closed. And Serbian prosecutors have brought very 
few criminal cases, despite the evidence. President Vucic even 
promised then-Vice President, now President-elect Biden, Vice 
President Pence, and me, that he would ensure justice for the 
Bytycis. We have seen absolutely none.
    While most of the crimes during the war were committed by 
Milosevic and his brutal army, the international community has 
forced Kosova, not Serbia, to set up a special court to deal 
with wartime crimes. The court came about in response to a 
report by a European parliamentarian, in large part, about a 
debunked claim of organ trafficking by the Kosovo Liberation 
Army. Yet, the Specialist Chambers remains.
    Let me be absolutely clear. Anyone who committed war crimes 
on any side should be prosecuted and brought to justice. 
Period. But I must ask: What is justice in the wake of the 
Kosovo War? Right now, it seems like Serbia, the party 
responsible for most of the war crimes, faces virtually no 
pressure at home, or from international communities to bring 
its perpetrators to account.
    At the same time, the victim in the war, Kosovo, is forced 
to create a hybrid court with an international prosecutor and 
judges. Friends, if this was Denmark, we would be thinking 
something was rotten here.
    As I said, if the Kosovars committed war crimes, they 
should be held to account. But here is the problem: I have read 
the statute that created the court, and nowhere does it says 
that it should prosecute only one ethnicity, but that is 
exactly what is happening. I know my tenure in Congress is 
coming to a close, but the problems with this court are 
continuing, and I strongly caution the courts, the United 
States, and our allies, that we must now--we must not allow it 
to become an ethnic court, because if we do, we are only 
perpetuating problems, which cause the region's difficulties 
and conflicts and divisions in the first place.
    Read the law. The Court has jurisdiction over all war 
crimes committed in Kosovo, no matter which side committed 
them, all war crimes during the wartime period, and it must 
carry out its mandate fairly without ethnic bias. Still, this 
court is part of a larger problem with how the United States 
has been approaching Kosovo. We only see it partially as an 
independent State, not as a true sovereign partner, not as a 
regular country with which we have normal bilateral relation.
    Too often, we deal with Kosova as a war in the dialog with 
Serbia. We subsume our bilateral ties to such an extent that 
we, the United States, are limiting Kosova's sovereign choices 
to avoid to offending Belgrade. We told Kosovo it cannot base 
its trade with Serbia on the principle of reciprocity, one of 
the cornerstones of international trade law.
    Sadly, the Trump Administration actions were a contributing 
factor in the fall of the Kosovo Government not too long ago. 
We have even put the brakes on Kosovo's tiny defensive 
military. These things have to stop. And I hope President-elect 
Biden's Administration will reground our relationship with 
Kosovo on its own terms, not on irrational fears emanating from 
its larger neighbor.
    Now that larger neighbor has its own problems and concerns, 
first and foremost, its robust relationship with Russia. As 
U.S. Ambassador Hoyt Yee has said, Serbia cannot sit on two 
chairs at the same time. Serbia has been importing Russian 
fighters and tanks and conducting military exercises with the 
Russian Army. A U.S. Defense Department report told us that 
Belgrade's drift toward Moscow has mostly occurred since 
President Vucic took power.
    At the same time, Democratic space in Serbia has shrunk in 
recent years. Freedom House describes Serbia as a, quote, 
``hybrid regime,'' unquote; not a democracy, because of 
declining standards in governance, justice, elections, and 
media freedom. If Serbia wants to become part of the European 
Union and the North Atlantic family of Nations, it needs to get 
off the fence and embrace a Western path.
    I would like to shift gears now and talk briefly about 
Bosnia. Before I do that, let me say as an American, any 
American--I have been to Kosova many, many times--any American 
comes to Kosovo, they are treated like royalty. I have never 
seen anything like it. I traveled the world but the people of 
Kosova love Americans, love everything American, and understand 
that we are be mainly responsible for their freedom, for the 
fact that they are a free and independent nation.
    So, if you go there, people will talk with you. People will 
approach you. People will hug you. It is just an amazing thing 
that I've seen nowhere else the world, the great affection that 
they have for Americans. When they put their independence and 
declare independence, there were as many, and even more 
American flags flying all over Kosova than there were Kosova 
flags or Albanian flags. The American flag was paramount 
because Kosovars really appreciate what we did for them by 
presenting--preventing a genocide on the European Continent.
    So I would like to shift gears now and talk briefly about 
Bosnia. Next week marks the 25th anniversary of the formal 
signing of the Dayton Accords, which ended the war in Bosnia. 
That negotiation was very difficult, but finally brought the 
horrors to a permanent conclusion.
    But Dayton only created a stalemate. Under the agreement 
only a unanimous decision of the collective presidency 
comprised of ethnic-controlled republics could move the country 
forward.
    Bosnia became stuck, unable to advance. We see now that 
this system has not worked. In so many ways, it put Bosnia in a 
deep freeze, where Republica Srpska blocks decisions in the 
country's national interests in favor of widely expanding 
autonomy and a loosely veiled breakaway agenda. This has to 
end.
    The incoming Biden Administration needs to ask a simple 
question: Dayton has taken Bosnia as far as it could, but it no 
longer works and it has not for years. So what should come 
next, and how do we get there?
    Friends, this is the last hearing I will conduct on the 
Balkans. And it has allowed me to remember some of the high 
points of my work in the region. In the 1990's, in Kosovo, I 
remember seeing walls built in schools to separate Albanians 
from Serbs and to separate healthcare system created by the 
Nation's Kosovar majority. I remember cutting the ribbon on the 
USIA office in Prishtina in 1996, an outpost we sometimes 
called the first American embassy in Kosovo.
    I remember talking to President Clinton and Secretary 
Albright about the need to step in and halt the ethnic 
cleansing in Bosnia and Kosovo.
    Thank you, Madam Secretary, for everything you did and all 
your work. Everything you did is an inspiration to us all. 
Thank you for everything you did.
    I have been honored to address the parliaments of several 
countries in the region, and to be present when we opened--when 
we cut--opened the beautiful new U.S. Embassy in Prishtina. 
Cutting the ribbon was just--meant so much to me.
    And, Madeleine, Secretary Albright, I am so glad that you 
are, again, testifying for the Foreign Affairs Committee during 
one of my final hearings as chairman. We have known each other 
a long time, and I see the world change a great deal, and I am 
honored to count you among my friends.
    Today, it is hard to recognize the region which I first 
visited in 1993. Countries are independent, democratic, and 
developing. They have young, intelligent population, ready to 
liberate their entrepreneurial spirit, their rich cultural 
heritage, and so much more.
    Let's finish the work we began when I first entered 
Congress. Let's stand with the people of this region and let's 
lead the international community and complete the job of 
bringing every country of the Balkans into the heart of Europe. 
I look forward to hearing from our witnesses.
    First, I will yield to my good friend, the ranking member, 
Mr. McCaul of Texas, for any opening remarks he may have.
    Mr. McCaul. Thank you, Mr. Chairman.
    And I am so glad that Speaker Foley appointed you to the 
Foreign Affairs so many years ago. You have certainly 
distinguished this committee. It has been an honor to serve 
with you, and it is fitting, I think, and appropriate to one of 
your last hearings to be on Kosovo, which I know you have 
been--have done so much for the people of Kosovo and the 
country.
    The collapse of Yugoslavia three decades ago brought 
substantial chaos and suffering to the Balkan region. Yet over 
the last 30 years we have seen significant progress. Today the 
Western Balkans is largely at peace, and it has made great 
progress on its path toward Western integration. Earlier this 
year, we welcomed North Macedonia into NATO. They are now 
anchored to the world's most successful political, military 
alliance, and to the West.
    However, serious challenges still exist and keeping the 
Western Balkan countries on the path toward security and 
stability will require active engagement by the United States 
and our European allies.
    One such challenge currently facing the region is the 
political division in Bosnia. Last month, we celebrated the 
25th anniversary of the Dayton Accords, which brought an end to 
almost 4 years of fighting in Bosnia. However, Bosnia has still 
not been able to establish a sustainable democracy. In 
addition, American leadership will be especially critical to 
the normalization of relations between Kosovo and Serbia.
    In that vein, I want to praise the U.S.-led agreement 
signed this September to increase economic cooperation between 
Kosovo and Serbia. I urge the next Administration to work with 
our European allies to build on this agreement. We must 
continue to support these two countries as they work to reach a 
political resolution centered on mutual recognition.
    At a full committee hearing last year, we heard heart-
wrenching testimonials from witnesses that had firsthand 
experience of the atrocities that occurred during the Kosovo 
War. Too many of the perpetrators of those war crimes remain at 
large. One way for these two countries to move forward together 
would be to focus on bringing these war criminals to justice. 
Only when they can find closure and peace can a truly lasting 
political solution be achieved.
    The people of Kosovo deserve to live in an independent and 
democratic country that is fully incorporated into the 
international community. Serbia, too, must demonstrate that it 
sees its future in the West. Reversing the unacceptable 
deepening of security cooperation with Russia would be an 
important step for Belgrade.
    The Serbian leaders must knowledge that both Vladimir Putin 
and Xi Jinping are not their friends. But the consequence of 
malign influence by authoritarian regimes, like Russia and 
China, are not specific to Serbia. Unfortunately, while the 
United States and its European allies seek to help the Western 
Balkans build a more secure, prosperous, and democratic future, 
the Putin regime is promoting a destructive addenda. By sowing 
division and inciting ethnic tension, Putin and his cronies aim 
to stifle the democratic progress being made in the region and 
obstruct Western integration.
    Meanwhile, the Chinese Communist Party is making dangerous 
inroads in the region, exporting corruption, environmental 
instruction, and debt traps through its Belt and Road 
Initiatives. The CCP's goal is to create vulnerabilities in 
these countries that can later be leveraged for geopolitical 
gain. In the face of these threats, the West must Act. We 
cannot leave a political vacuum in the Western Balkans for Mr. 
Putin and the CCP to exploit. I hope today's witnesses will 
provide concrete recommendations on how we can confront Russia 
and China, their malign influence throughout the region.
    Madam Secretary, it is such a great honor to welcome you 
this morning. I will never forget our dinner at the Munich 
Security Conference a couple of years ago. Your steadfast 
support for NATO intervention that ended the ethnic cleansing 
by Serbian forces and liberating the people of Kosovo has been 
inspiring to all of us.
    Finally, I would like to thank my good friend, Chairman 
Engel, for holding this hearing. As all of you know, Eliot has 
been Kosovo's greatest champion in the U.S. Congress. He was 
among the first U.S. lawmakers to call on the Clinton 
Administration to intervene in the Kosovo War against Serbian 
forces, and he was the most outspoken advocate in Congress for 
U.S. recognition of Kosovo when it declared its independence in 
2008.
    To honor Mr. Engel's dedication to promoting peace, the 
people of Kosovo named a street after him in the town of Peja, 
as well as a highway that runs from Albania to Kosovo. In 
addition, the chairman appears on a stamp in Kosovo. That is 
quite an accomplishment. I am not aware of any other Member of 
Congress that has his own stamp in a foreign country or a 
street named after him. So I urge my colleagues to work to 
continue his legacy to advance the cause for an independent 
Kosovo, fully integrated into the international community.
    And with that, Mr. Chairman, I yield back my time.
    Chairman Engel. I thank the ranking member, and I thank him 
for his kind words. It has been a pleasure to work with him, to 
be a partner of his, and I know it is going to continue, even 
after into the indefinite future. So thank you. Thank you so 
much, Mr. McCaul. Thank you.
    It is now my honor to talk about our panelists. Let me 
start with Secretary Albright. Dr. Madeleine K. Albright is the 
chair of Albright Stonebridge Group, and was the 64th Secretary 
of State of the United States, at the time becoming the highest 
ranking woman in the history of the U.S. Government. Prior to 
serving as the Secretary of State, Dr. Albright served as 
permanent representative to the United Nations from 1993 to 
1997.
    She previously also served as a member of President Jimmy 
Carter's National Security Council and White House staff, and 
served as Chief Legislative Assistant to U.S. Senator Edmund S. 
Muskie.
    And I must add that Secretary Albright is a good friend of 
mine, and I am honored to be her friend, and I so respect her. 
I am really in awe of the work she does and how she conducts 
herself, and how smart and effective she is.
    So, Madam Secretary, thank you for coming here to testify.
    Professor Daniel Serwer directs the Conflict Management 
Program at Johns Hopkins School of Advanced International 
Studies, and is a senior fellow at the Center for Transatlantic 
Relations, and affiliated as a scholar with the Middle East 
Institute. His current interests focus on the civilian 
instruments needed to protect U.S. national security, as well 
as transition in State-building in the Middle East, North 
Africa, and the Balkans. Formerly vice president for Centers of 
Peacebuilding Innovation at the United States Institute of 
Peace, he led teams there, working on rule of law, religion, 
economics, media, technology, security sector governance, and 
agenda. He was also vice president for peace and stability 
operations at USIP, where he led the peace-building work in 
Iraq, Afghanistan, Sudan, and the Balkans and served as 
executive director of the Hamilton-Baker Iraq Study Group.
    Mr. Serwer has worked on preventing interethnic and 
sectarian conflict in Iraq and has facilitated dialog between 
Serbs and Albanians in the Balkans, also a stellar witness.
    Janusz Bugajski is a Senior Fellow at the Jamestown 
Foundation. He is the host of a television show, ``New Bugajski 
Hour,'' broadcast in the Balkans. Mr. Bugajski has authored 20 
books on Europe, Russia, and transatlantic relations, and is a 
columnist for several media outlets.
    Without objection, the witness' complete testimony will be 
made a part of the record of this hearing. I will recognize all 
of our witnesses for 5 minutes each to summarize their 
testimony and then we will have a chance to question.
    Let's begin with Secretary Albright.
    Madeleine, welcome back to the committee. It is great to 
see you.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
                             STATE

    Ms. Albright. Thank you, Chairman Engel and Ranking Member 
McCaul.
    Good morning, and thank you for convening this hearing on a 
topic of great interest to me, and of great importance to U.S. 
national interests.
    I want to begin by saying how grateful I am to you, 
Chairman Engel, for your relentless focus on the Balkans, even 
when attention in Washington was directed elsewhere. You have 
always been a critical ally for those working on behalf of 
peace and democracy in the region. They are going to miss your 
leadership in Congress, as will I. But we also know that you 
will remain a great advocate and partner for years to come.
    And, Congressman Meeks, I am looking forward to working 
with you on the full range of critical issues confronting this 
committee.
    More than two decades have now passed since the U.S. 
military intervened in Kosova, and next week will mark 25 years 
since the formal signing of the Dayton Accords, which brought 
the war in Bosnia and Herzegovina to an end. I believe the 
United States and our allies did the right thing by taking 
action to end the bloodshed in both places. And whenever I am 
asked about my proudest accomplishment, I talk about our 
efforts in Bosnia and Kosovo, which show the difference that 
U.S. leadership and American diplomacy backed by force can 
make.
    Our hearing this morning will focus, as it should, on the 
many challenges that face the region. But it is important to 
begin this conversation with some perspective. Today, the 
Balkans are more peaceful and stable than many thought possible 
25 years ago. The countries have not disintegrated or returned 
to ethnic violence. Instead, they are working to join the 
European Union and to deepen their ties with the United States, 
and I expect that the people of the region will find a ready 
partner in the incoming Biden Administration.
    As you know, Mr. Chairman, the President-elect has been 
personally engaged in the Balkans since his time in the Senate. 
And he was one of the most outspoken leaders in Congress, 
calling for the United States to help end the conflicts. And I 
was honored to work closely with him throughout my time in 
office, and I know that he understands the region and its 
importance for the United States.
    The national security team that President-elect Biden is 
putting in place is deeply knowledgeable and committed to 
helping all the countries of the region move forward as part of 
a Europe that is whole, free, and at peace; and that is 
important, because today, this vision is in peril.
    The nations of the Western Balkans are suffering deeply 
from the health and economic impacts of the coronavirus 
pandemic. Corruption remains a serious problem, and nationalist 
leaders continue to stoke and exploit ethnic tensions. China 
and Russia are also exerting new influence in the region with 
Serbia, in particular, the target of much anti-Western 
propaganda.
    As the pandemic eases, there will be an opportunity for the 
United States and Europe to help the region build back better, 
particularly as Western European countries seek to bring supply 
chains closer to home and, as new funds become available to 
invest in energy diversification and environmental protection. 
Supporting the region's democratic progress must also be a 
priority, pushing back on authoritarian interference and 
building on the work that organizations, such as the National 
Democratic Institute, which I am honored to chair, are doing on 
the ground.
    Still, I fear that this opportunity could be missed. To 
ensure we help the region meet this moment, the next 
Administration must develop and implement a new regional 
strategy. And I would suggest that such a strategy buildup 
three elements:
    First, we must establish and maintain close cooperation 
with the European Union. The six States of the Western Balkans 
want to be in the EU, which is their largest and natural 
trading partner. The United States can help the EU use its 
influence to good effect, and our influence in the region, 
including with some EU member States, can be useful in keeping 
political problems from imperiling the region's progress.
    Second, we must attack the rampant corruption that is 
crippling political institutions and undermining the rule of 
law across the region. In every country, leaders seem to regard 
political office as a source of patronage to stay in power. 
Addressing this so-called State capture and, rooting out these 
influences, must be a top priority.
    Finally, the United States and its allies in Europe should 
shift toward more of a regional approach. The current EU and 
NATO strategies deal with each country one by one. This is 
necessary to reward governments when they make the tough 
decisions needed to move forward. But a strategy that considers 
only each country in isolation risks leaving behind States that 
have the most work to do and the fewest political champions in 
Europe.
    The answer is for the United States and the EU to work 
together to champion initiatives that help Kosovo, Bosnia, and 
others build economic ties to Europe and the neighborhood, 
while also pushing for needed political reforms.
    Mr. Chairman, I know that you have a number of specific 
issues you would like to discuss, and I look forward to your 
questions but let me quickly stress two topics that are top of 
mind.
    Ms. Albright. On Kosovo, our shared goal should be for it 
to become a normal country in the United Nations, part of the 
regular international system, and with all the rights of 
international law to defend its territory. This should not be 
subject to a veto by Belgrade.
    On Bosnia, the Dayton Accords stopped a war and continue to 
keep the peace but the governing arrangements are now captured 
by leaders among the three groups that negotiated the peace. 
They want to hold on to power, even if it means holding their 
society back, while Bosnia's neighbors move toward EU 
membership.
    The United States and the European Union must focus their 
efforts in Bosnia on the abuse of government and State-owned 
enterprises, taking away the leverage of powers that keep the 
current system in place. This is, obviously, all easier said 
than done, but the key lesson of the past 25 years is that 
sustained engagement by the United States can help the region 
move forward.
    With Joe Biden as President, I am confident that the United 
States will, once again, be a force for good in the region. And 
I am prepared to do anything I can in partnership with this 
committee to help the new Administration succeed. And thank you 
again for your continued attention to this critical issue.
    And, Mr. Chairman, I look forward so much to continuing to 
work with you, no matter what angle, you know, where you are 
coming from, because you have really, really cared so deeply 
about that part of the world.
    [The prepared statement of Ms. Albright follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Well, thank you. Thank you, Madam 
Secretary. And I look forward to continue working with you for 
many, many years to come. I think that you are certainly 
unique, as far as I am concerned, in what you have done for our 
country and with our country, and being so smart and knowing 
what should happen. You were a voice when there were very few 
voices, and I thank you for it, and I am always in awe of 
everything you say and do. So, thank you, Madam Secretary.
    Professor Serwer.

  STATEMENT OF DR. DANIEL SERWER, DIRECTOR, AMERICAN FOREIGN 
   POLICY, DIRECTOR, CONFLICT MANAGEMENT, SCHOOL OF ADVANCED 
        INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Dr. Serwer. Thank you, Mr. Chairman, not only for this 
opportunity to testify once again, but also for your decades of 
commitment to Europe whole and free.
    But the job isn't yet finished. Problems remain between 
Serbia and Kosovo, as well as inside Bosnia and Herzegovina, 
where Serbia is also a factor. The essential precondition for 
solving the remaining Balkan problems is American recommitment 
to the region, in tandem with European alliance. Recent 
competition between the U.S. and EU, which has demonstrated it 
cannot do the job on its own, hampered progress. As part of 
this global reassertion with democratic values, President Biden 
should consult the Europeans and announce a joint vision for 
the Balkans region.
    Mr. Chairman, independent Kosovo is still completing its 
Statehood. Its security forces are progressing toward NATO. 
Other sovereign institutions are also gaining capability, but 
lack universal recognition. The Prishtina/Belgrade dialog the 
EU leads can help, but needs more U.S. engagement. The 
Americans should focus on implementation and reciprocity. The 
dialog needs a monitoring mechanism, including for past 
agreements, as well as commitments like Kosovo's EU visa 
waiver. Reciprocity should include extension of the Special 
Chambers' mandate to crimes committed in Serbia including the 
postwar murder of three Americans.
    The main U.S. goal for the dialog is mutual recognition and 
exchange of Ambassadors. President Biden and Chancellor Merkel 
should make this goal explicit and press the non-recognizing EU 
members to declare they will recognize Kosovo no later than 
Serbia does. U.N. membership will require the Americans to 
convince Russia and China not to veto.
    Mr. Chairman, Bosnia sovereignty and territorial integrity 
are as fraught and Kosovo's. The Dayton Accords reached 25 
years ago entailed territorial division and ethnic power-
sharing, ending a terrible war. That formula no longer makes 
sense for the international community, which pays many of 
Bosnia's bills, or for its citizens who suffer dysfunctional 
governance.
    Dayton today serves the interests of ethnic robber barons. 
One arms his Statelet for secession, while another eggs him on 
and the third complains. The U.S. should press the Europeans to 
sanction those who advocate Republika Srpska independence, and 
to strengthen and reposition their troops, visibly backed by 
the U.S., to the northeastern town of Brcko, to block 
secession. The U.S. should seek to block Russian arming of 
entity police, as well as Croatian and Serbian political 
interference.
    Europe and the United States want a post-Dayton Bosnia that 
can qualify for EU membership. That Bosnia will be based, not 
on ethnic power-sharing, but, rather, on the majority of 
citizens electing their representatives. The cantons and 
entities, as well as ethnic vetoes and restrictions, will need 
to fade. The Americans and Europeans should welcome the 
prospect of a new civic constitution.
    But no one outside Bosnia and Herzegovina can reform its 
constitution. A popular movement is needed. The United States, 
along with the Europeans, needs to shield any popular movement 
from repression, while starving the entities funding and 
redirecting it to the central government and municipalities.
    Mr. Chairman, everything I have suggested will be easier if 
Serbia helps. President Trump allowed President Vucic to 
tighten control of Serbian courts and news media, which often 
indulge in hate speech, and to promote pan-Serb ambitions 
destabilizing to Bosnia, Kosovo, and Montenegro. The Biden 
Administration will need to toughen up on Belgrade, together 
with Europe. If Vucic continues to prefer autocracy and 
alignment with Russia and China, the Americans and Europeans 
will need to await the day Serbia is committed to real 
democracy at home, and better relations with its neighbors. 
Serbia's citizens, more concerned about jobs than Kosovo or 
Bosnia, need to help.
    In the meanwhile, we may want to think about an interim 
arrangement between Serbia and Kosovo, provided it gives Kosovo 
a seat at the U.N. Getting a good deal requires readiness to 
reject a bad one.
    Mr. Chairman, President Biden will have bigger problems 
than the Balkans. But few regions promise better returns. 
Cooperating with Europeans, the U.S. can save the sovereignty 
and territorial integrity of two potential allies, Kosovo and 
Bosnia, and help Serbia escape its legacy of autocracy and war. 
President Biden should support those prepared to make Europe 
whole and free, and counter those who block progress.
    Mr. Chairman, I hope you will allow me to submit for the 
record an article that appears this month in the Foreign 
Service Journal that I wrote on the Dayton Accords at 25 which 
goes deeper into some of the arguments I have presented just 
now.
    [The prepared statement of Dr. Daniel Serwer follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Without objection, so ordered.
    Thank you, Professor Serwer. Thank you for your testimony.
    Our third witness, Professor Bugajski.

  STATEMENT OF JANUSZ BUGAJSKI, SENIOR FELLOW, THE JAMESTOWN 
                           FOUNDATION

    Mr. Bugajski. Thank you. Good morning, Chairman Engel and 
Ranking Member McCaul, as well as members of the Foreign 
Affairs Committee.
    Thank you very much for the opportunity to offer--to be 
able to offer recommendations for the next U.S. Administration, 
specifically in its policies toward the Western Balkans. I will 
very briefly summarize my written testimony, and, as requested, 
my recommendations focus on two regional challenges: the 
Kosova-Serbia dialog, and the Bosnia-Herzegovina impasse, as 
well as two external threats, Russia and China.
    So let me begin. I think the goal of the Serbia-Kosova 
dialog should be to devise a roadmap for interState 
recognition. This is the only sustainable solution that would 
free both countries to pursue their aspirations toward EU 
integration and economic development. U.S. partnership with 
European Union in reaching a final settlement is essential.
    The White House meeting with leaders of Serbia and Kosova 
in September reengaged Washington in the dialog, but the U.S. 
cannot simply focus on economic linkages and neglect key 
political decisions. Economic relations will not be normalized 
if political relations remain abnormal.
    In Bosnia-Herzegovina, the Dayton Accords were not designed 
to construct an integrated State with an effective central 
government. Instead, ethno-politics has blocked the country's 
progress into international organizations. The result of 
Bosnian impasse, U.S. and EU representatives must devise a 
roadmap for constitutional, administrative, and electoral 
reform. Support for specific politics must be significantly 
increased, and the rule of law strengthened. Economic 
instruments can also encourage reform and a more empowered 
central government, while squeezing out funds to entities and 
cantons that block the functioning of the State, or threaten 
partition.
    Persistent threats against Bosnian integrity limit economic 
development, promote interethnic discord, encourage radicalism, 
and endanger the survival of the State.
    Two foreign actors directly contribute to instability in 
the region, Russia and China. Both adversaries view the region 
as Europe's weak pressure point, where competition with NATO 
and the U.S. can be increased, conflicts manipulated, new 
allies captured, and economic opportunities exploited. For 
Moscow, the Balkans are a strategic asset to expand its 
geopolitical reach, fracture Western cohesion, undermine 
international organizations, undercut the U.S. presence, and 
capture allies.
    In trying to imitate Titoist Yugoslavia by balancing Russia 
and China with the U.S. and the EU, Serbia is subverting its 
own links with Western institutions and weakening security on 
the Balkan Peninsula.
    The U.S. Administration can support a regional initiative 
focused on the vulnerabilities has the Kremlin exploits to its 
advantage, including disinformation, corruption, and the 
funding of nationalist extremism. Such an initiative can expose 
Russia's illicit money flows, media connections, disinformation 
campaigns, and the links of Russian oligarchs and intelligence 
services with local politicians, nationalist parties, religious 
institutions, and social organizations.
    Moscow views Serbia, in particular, and the Republika 
Srpska in Bosnia, as useful tools to subvert regional security 
and limit Western integration.
    Sanctions, asset freezes, and arrest warrants can be 
imposed on Russia oligarchs and entities engaged in corrupt 
activities, or inciting ethnic conflict or coup attempts. Media 
outlets and civic organizations must also be assisted to better 
coordinate efforts in countering disinformation spread by 
Russian and Chinese sources.
    Western Balkan inclusion in the Three Seas Initiative and 
its north-south transportation corridor will enhance economic 
performance and help provide alternatives to dependence on 
Russian energy and Chinese loans.
    Washington must pay greater attention to nearby States that 
can exert the negative influence in the Western Balkans, 
especially Bulgaria, Hungary, and Croatia. For instance, 
Bulgaria's blockage of EU accession talks for North Macedonia 
mobilizes the pro-Russia lobby in Bulgaria and weakens Balkans' 
security.
    The new U.S. Administration must avoid the self-defeating 
reset with the Kremlin in the hope that a major adversary can 
be transformed into a credible partner. A more assertive U.S. 
policy can help neutralize Moscow's Balkan ambitions by 
spotlighting Russia's own vulnerabilities, including its 
economic weaknesses and escalating domestic turmoil.
    International democracy initiatives as proposed by the 
President-elect should zero in on the Russia Federation by 
supporting human rights, individual freedoms, political 
pluralism, ethnic equality, and genuine federalism in this 
increasingly unmanageable State. In restoring the vitality of 
the Western alliance, Washington can demonstrate that it is not 
in conflict with the citizens of the Russian Federation.
    Very briefly on China: China's long-term ammunitions are to 
replace the U.S. as the leading global power. Its expanding 
influence is based primarily on investments and development 
assistance, which creates indebted independent States that 
undermine transatlantic unity. In exchange for investment, 
Beijing seeks diplomatic support for its policies in 
international fora. Western governments need to contain Chinese 
influence, but without damaging the economic development of 
vulnerable countries. They must work together to prevent the 
takeover of key economic sectors, invest in new technologies, 
and improve conditions for private and public investments.
    And, last, similarly, to probes of Russian activities, 
Chinese money flows, political connections, business links, and 
media inroads must be systematically investigated. More 
attention must be paid to China's political, social, and 
cultural inroads, and how these can negatively impact on 
democracy and security. Beijing is increasing its engagement in 
academia, media, culture, and civil society to promote China's 
foreign policy goals, and to weaken American influence in 
Europe and elsewhere.
    I think I have run over my time. I have not even looked. 
But, anyway, I will stop there because I have run out. Thank 
you.
    [The prepared statement of Mr. Bugajski follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Engel. Thank you, Mr. Bugajski.
    Let me start by asking Secretary Albright this question: I 
have often referred to the NATO bombing, which, of course, we 
led, and you were such an integral part of it, we prevented 
ethnic cleansing on the continent of Europe with the bombing in 
1999. We prevented another catastrophe. I am really proud of 
what the United States did. But since that time, we have sort 
of been locked into a time warp. There has been very little 
progress beyond everybody holding, staying in place. And we see 
the court, which was formed to prosecute both Serbs and 
Albanians, anyone who created these war crimes, but so far, it 
only seems to be going after Albania and, therefore, the court 
is really looked upon as an ethnic court, and not one that is 
really serious about trying to move progress in the Balkans.
    Could you please comment on the court, what is happening, 
and the fact that we, again, prevented genocide on the 
continent of Europe? What do we need to do now to make sure we 
move forward, because it has been, as you know, very little 
movement forward since the 1999 bombings?
    Ms. Albright. Mr. Chairman, thank you for asking that, 
because I think it is a crucial aspect of how we deal with the 
issues.
    And let me say, I do not think that--I am not exaggerating 
when I say about how much time while I was, whether at the U.N. 
or then as Secretary, we spent on the Balkans. And one of the 
first votes I took at the United Nations was to create the War 
Crimes Tribunal for the former Yugoslavia, and it did a lot of 
work but, of course, it isn't operating at this stage.
    And so, I think that is a question. It needs to be dealt 
with that exactly the way that you are discussing the fact that 
now there is the special Kosova court, and, in fact, is dealing 
with what they are saying: Were crimes committed?
    And so, I do think that justice and the use of the rule of 
law is something that is very important in trying to bring the 
country and the people back together. The bottom line is we 
have always had problems trying to show the role of the Serbs 
in the ethnic cleansing. And when the War Crimes Tribunal was 
operating, Milosevic and Karadzic, he, in fact, is serving a 
life sentence. Milosevic died.
    But I do think that we need to look very carefully at what 
the law can do, because it is able to identify individual 
guilt, and not have collective guilt for things, because I 
think there needs to be a recognition that the countries that 
are in the Balkans that used to be able to communicate with 
each other need to again do that and not put everything on the 
lines of ethnic conflict, but try to solve some problems 
together.
    But you're absolutely right. I would love to just insert 
here something, because we were talking about what President-
elect Biden can and should do. In 2009, he gave a speech in the 
parliament of Bosnia-Herzegovina. And he said the following:
    When will you get tired of this divisive, nationalistic 
rhetoric? The U.S. expects you to start working across party 
lines to make Bosnia function as a normal State.
    That is telling it like it is. I really believe in making 
sure that we deal with the past and move to the future of 
dealing together.
    Chairman Engel. Thank you.
    Let me ask Mr. Bugajski a question.
    Bringing the Western Balkans into the Western family of 
democratic and free-market-based nations has been a largely 
successful project since the 1990's. Two countries have joined 
the EU, five have joined NATO, and democracy has taken hold. 
But the job is obviously not done. Russia is working overtime 
to divide our Balkan partners from the United States and 
Europe, while China is quietly advancing into the region as 
well.
    So what do you see as the big steps that the incoming Biden 
Administration can take to cement the region into the North 
Atlantic and keep Russia and China at bay?
    Mr. Bugajski. Thank you for that question, Mr. Chairman.
    I mean, first of all, working very closely with the 
European Union is essential. As the Secretary pointed out, each 
of these countries, including Serbia, do want to enter the 
European Union. If America supports the European Union project, 
if it supports integration of the entire region as specified in 
the initial Thessaloniki agreement, then I think we are going 
to make some progress, and America has a role to play in 
helping these countries to achieve the kind of reforms they 
need to achieve in order to qualify.
    Plus, the kind of steps that myself and Dan has outlined on 
trying to reform the Bosnian Government, and the Bosnian State 
itself, to make sure it is capable of qualifying for European 
Union is essential. And, of course, NATO. NATO does provide an 
umbrella of security for each country that has entered. We can 
tell by the degree of Russian opposition how effective NATO 
actually is.
    However, with one caveat, I would say. Even countries that 
are within NATO have to be very closely monitored, one, in 
terms of their defense contributions, which the current 
Administration has rightly pointed out, in some cases, does not 
meet the requirements; but, second, also to fight back against 
Russian influence, Russian corruption, and Russian political 
sway, particularly in countries such as Bulgaria and Hungary, 
which could be open to more pernicious Russian influences to 
destabilize the region.
    So a few things that sort of, off the top of my head that I 
would recommend.
    Chairman Engel. Thank you very much.
    Let me ask Mr. Sewer. The Balkans is a diverse region. It 
is rich in history and culture, ethnicity, and religion. The 
variety of those elements can strengthen a region. When tapped 
with sensitivity and respect, they can serve as a wedge, 
driving apart societies when abused. So what is the way forward 
do you see for the diverse peoples of the Balkans? Are there 
lessons from other countries with diverse societies, and what 
can we in the U.S. who have experienced such division in recent 
years learn from the Balkans?
    Dr. Serwer. What we can learn from the Balkans is not to go 
there. Ethnic identity conflicts are extraordinarily difficult 
to resolve, and we should avoid them as best we can. All of us 
have multiple identities. I am a professor. Some people think I 
am a white guy. I am a Jew. I am many different things. And I 
want all those layers to be respected in the country that I 
happen to be a citizen of.
    And I think that is where the Balkans have to go. The 
Balkans have, for historical reasons, emphasized ethnic 
identity above all others, especially in the post-Yugoslav 
period. People in Balkans, like me, have multiple identities, 
and they need to recognize that, and demand that their 
governments and that their courts, that those multiple 
identities be respected, and that the whole person be 
respected.
    To tell me that I cannot be a candidate for President of 
Bosnia and Herzegovina, except if I am a Croat Serb or Bosniak 
is outrageous, and yet, that is what the Dayton Constitution 
did. It also enabled the European Court of Human Rights to 
strike down that provision of the Dayton constitution. But, of 
course, the constitution has not been amended to allow others 
to be candidates for the presidency.
    So what we need to expect of the Balkans is to stop this 
overemphasis on ethnic identity, start recognizing we all have 
multiple identities, and that individual rights have to be 
respected, and they are not well-respected in the Balkans 
today.
    Chairman Engel. Thank you. Thank you very much.
    And thanks to all the witnesses.
    I will now call on our ranking member, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Madam Secretary and Mr. Bugajski, just to followup on the 
chairman's question about--I am concerned about the growing 
footprint in Serbia, Kosovo, and the wider Balkan region of 
both the Chinese Communist Party and the Russians, the Russians 
being disinformation campaign, the CCP with the Belt and Road 
Initiative, to basically have PRC investments that come with 
strings attached, debt traps, financial implications, 
environmental and societal.
    We had, last Congress, Congressman Ted Yoho, probably one 
of the best things this committee's ever done is we passed the 
Development Finance Corporation as a counter to malign Chinese 
activity across the globe, with respect to the Belt and Road 
Initiative.
    Can you talk a little bit about, No. 1, the threat that is 
posed by the PRC and Russia in the region, and, also, what do 
you see are some of the solutions to stop that, and 
particularly looking at private sector investments with the 
Development Finance Corporation?
    Chairman Engel. Mr. McCaul, is there someone you want to 
direct the question to?
    Mr. McCaul. I said at the outset to Madam Secretary and to 
Mr. Bugajski.
    Ms. Albright. Thank you very much, Congressman McCaul.
    I really do think that I am very concerned exactly about 
the same things you are.
    The Russians have wanted to have a very direct relationship 
with Serbia for a long time. A lot of the history, even during 
the Tito period, had to do with that relationship. Partially 
what is happening is the Russians are practicing in Serbia the 
things that they are doing in other parts of Central and 
Eastern Europe, which is operating to undermine democracy 
there, and then separate the countries from being a part of the 
West, and they are using the tactics of a KGB agent. That what 
is we are dealing with.
    And so, I do think they see themselves as having a natural 
partnership, quote, with the Slavs in the Balkans, and that 
kind of relationship that they think is natural and important 
for their own sake and for undermining what we are doing in 
democratic development.
    The Chinese have, in fact, been investing through the Belt 
and Road. And they have been doing it in a number of areas that 
are important in the region, which has to do with 
transportation, with mining, a number of things that the region 
needs. And I do think what is interesting, the Development 
Finance Corporation is a huge step forward, and I think 
something that is very important. There has been an office 
opened recently in Belgrade. I do think that we need to use 
that as a tool in terms of helping on the investment, and I 
also do believe the private sector needs to get in there.
    What is interesting--and I do not know whether this is true 
or not, I just read it--is that the Chinese have all of a 
sudden decided that maybe they cannot afford the Belt and Road, 
literally, that they are having their own economic issues, and 
that they are not going to be investing in much abroad. I think 
we need to follow that very carefully, because, obviously, our 
relationship with the Chinese is going to affect not just what 
happens in the Balkans, but many places. So I think we have to 
watch.
    I do think we really do want to see economic development in 
the Balkans. And the more of it that can be done regionally, 
the more important it is, because they there are not that many 
people that live in the region. The countries are small, and 
some kind of cooperation economically would help everybody.
    Mr. McCaul. Thank you, Madam Secretary. I agree with you 
100 percent.
    Mr. Bugajski.
    Mr. Bugajski. Yes. I would simply add that it is important 
to look at the impact of the pandemic in the region. I mean, 
even after the vaccine is distributed and taken, assuming there 
are no other strains of this virus in the near future, the 
long-term economic impact is quite devastating through most of 
Europe but particularly in the Balkans. They are going to need 
a lot of assistance from the European Union, a lot of 
assistance from us, as well as the conditions for private 
investment.
    But there are also, I would say, social and political 
implications of economic disruption. I mean, it sort of 
encourages nationalism. It encourages conflicts in the region. 
It encourages populists. And it also encourages foreign actors, 
bad actors who want to undermine security in the region. And 
this is where I believe Russia and China come in.
    Russia, by the way, is more of a short-term danger. I would 
say China is a longer term threat. It will have ups and downs. 
Of course, a lot depends on its own internal economic 
performance and its ability to actually construct this Belt and 
Road Initiative. But we need to push back. We cannot become 
complacent.
    I think investments, whether through development funds with 
the European Union, working closely with the United States, as 
well as making conditions to attract private investment, I 
think that is essential, legal conditions, bureaucratic 
conditions, you know, local conditions and so forth.
    This is why I think the economic--establishing closer 
economic relations in Kosovo and Serbia is important, but I 
think they can only be fully equal once the two States 
recognize each other. And the sort of nontariff barriers on 
Kosovo goods have to be lifted and both countries need to 
recognize each other's paperwork, each other's legitimacy. I 
think all that would help us to fight back against very 
nefarious Russian and Chinese influence.
    Mr. McCaul. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Mr. Sherman.
    Mr. Sherman. Mr. Chairman, it has been an honor to serve 
with you on this committee for decades. You are a hero in 
Kosovo, you are a hero in Albania, and you are a hero in room 
2172. Thank you for your years of dedication and leadership. 
You are leaving the committee in good hands, those of Greg 
Meeks and Mike McCaul, and I look forward to extraordinary 
contributions on this committee in the future under that 
leadership.
    One observation about Kosovo, and that is America often is 
accused of being anti-Muslim. Nothing could be further from the 
truth, and nothing could illustrate that to a greater degree 
than the fact that we bombed a Christian country in order to 
preserve the Kosovars and to prevent ethnic cleansing. And that 
story needs to be repeated again and again throughout the 
Muslim world by both the United States and Kosovo.
    I hope that we get time to focus on Bulgaria and Greece in 
this hearing on the Balkans, but, naturally, we are focusing 
our attention on the former Yugoslavia. As I turn to my 
questions, I realize this may be the last time I ask my 
questions immediately after the gentleman from the Bronx and 
maybe the last time I get to ask questions immediately before 
the gentleman from Queens.
    Following the 2016 coup attempt in Turkey, Erdogan blamed 
the followers of Imam Gulen. Bosnian officials were reportedly 
pressured to shutter schools that had ties to Gulen's movement. 
Then in 2016, six Turkish nationals were arrested in Kosovo and 
secretly extradited to Turkey. We know that there were false 
charges issued by the Turkish Government, and as a result, 
journalists, human rights defenders, and politicians associated 
with Gulen and others who would like to see a greater degree of 
democracy in Turkey have been subject to pressure or arrest.
    Secretary Albright, does Turkey continue to pressure 
countries in the Balkans, both with regard to harboring any 
Turkish national that Erdogan does not like and with regard to 
other matters?
    Ms. Albright. Congressman, I am very concerned about 
Turkey's behavior generally. In terms of the kind of activities 
that Erdogan is undertaking, it raises--I hope we spend more 
time at some point really talking about what their role is, 
what is happening in NATO as a result of Turkish behavior and 
buying Russian arms. And I do believe that there are isolated 
cases of pressure that the Erdogan government is putting on 
other governments.
    But I think that one has to be very careful not to kind of 
fall into a trap where some people are saying that, all of a 
sudden, the Muslim population in Kosovo is being manipulated 
from the outside, that it is not thinking about what is 
happening to the people of Kosovo, but that they are under 
pressure. They have been dealing I think very positively with 
some people that went to fight on with ISIL and bringing some 
of them back in order to have them understand what has been 
happening in the country.
    But I do think that, on a general answer, the role of 
Erdogan is something that is very troubling in so many 
different ways, of its relationship with Greece, what it is 
trying to do in the Balkans, and what it is doing in the Middle 
East, and something that is definitely worth a closer look by 
this committee of yours which has to deal with the various 
repercussions of it, not just in the Balkans but generally.
    Mr. Sherman. And Turkish actions recently in the Caucasus.
    The President of Serbia has deepened military ties with 
Moscow. Should the United States also pursue deeper military 
ties with Serbia to try to wean them away from Moscow or should 
we avoid that? And should Serbia be sanctioned for its 
purchases of Russian military equipment, which could constitute 
a violation of U.S. sanctions laws against Russia, particularly 
CAATSA? Madam Secretary?
    Ms. Albright. Well, I do think we need to look much more at 
what is happening in terms of the purchase of Russian military 
equipment generally, and I think it is something that is 
subject to sanctioning and trying to understand what they are 
buying.
    And I think we also need to look at--and this is a really 
hard question in terms of not just Serbia, but as I said 
earlier, what Turkey is doing as a NATO member, using our arms 
and the Russian at the same time for activities that do not 
respond to what is necessary in the region. I think this is 
something that bears very much investigation and action by 
Congress.
    Mr. Sherman. Thank you. I yield back.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    My wife sent me to the post office in my district this past 
Saturday to buy postage stamps for our Christmas cards. And it 
was mentioned earlier by the ranking member that not only do 
you have a street but postage stamps. And I know you are 
Jewish, but I would have been proud to purchase those stamps if 
they were legal here in the U.S., which I am assuming they are 
not coming out of here.
    But you deserve tremendous credit for your leadership on 
this committee for so many years, particularly as chairman. I 
am proud to have served on this committee with you for two and 
a half decades now, and I wish you nothing but the best for the 
future. And you are a great Member, a great friend, great 
chairman, and I wish you nothing but the best in the future.
    Chairman Engel. Thank you, Mr. Chabot.
    Mr. Chabot. Thank you.
    And I will go first to Mr. Bugajski. How has Putin used his 
U.N. Security Council veto to complicate efforts to normalize 
relations between Kosovo and Serbia?
    Mr. Bugajski. Thank you very much for the question. Well, 
basically, Russian Federation continues to block Kosovo's 
membership in the United Nations through its veto powers in the 
U.N. General Assembly. It is on the one hand backing Serbia's 
position now not to recognize Kosovo, but it is also exploiting 
the fact that it has that power over entry of any country into 
international institutions to raise its own stature. And I 
think, actually, it does Serbia a disservice, because the more 
Serbia becomes dependent on Russia for such things as blockages 
in international institutions, the more it will become 
dependent in other areas, diplomatic, political, economic, 
military, as we have already discussed.
    Blockage of any governments that we recognize I think is 
destructive for stability in the region. Five European Union 
States, by the way, also do not recognize Kosovo's 
independence. And I think here the incoming Administration can 
also play a role in persuading them that the future is Kosovo's 
independence--I mean, it is independent now, but its full 
membership in international organizations--and to persuade 
governments, specifically the Greek Government, which I think 
has acted very well in terms of the agreement it had with 
Macedonia, now North Macedonia, something we did notexpect a 
few years ago. And I think the Greek Government behaved very 
astutely, very bravely to come to that agreement. There is no 
reason why Greece cannot recognize Kosovo. It already 
recognizes the paperwork and so forth.
    And, of course, countries that we really helped in the 
past, Slovakia, Romania, these countries should also be 
recognizing Kosovo. And I think if there is a flow of 
recognitions in the European Union, that will help, I think, 
increase pressure on Russia to waive that veto power in the 
future in the United Nations.
    Mr. Chabot. Thank you, Mr. Bugajski.
    And with my remaining time, let me followup with another 
question. Among other measures, the U.S.-brokered agreement 
that Kosovo signed in September included mutual diplomatic 
recognition of Israel, while Serbia pledged to move its embassy 
in Israel to Jerusalem. Could you describe why those measures 
are so significant?
    Mr. Bugajski. Well, I think, first of all, they are 
significant for Kosovo, because one of the things that Serbia 
has been doing is not only blocking entry of the country into 
international institutions, but mounting an international 
campaign of derecognition. In other words, they have persuaded, 
mostly through bribery, they have persuaded several countries 
in Oceania and even in Central America to derecognize Kosovo.
    Second, I would say that it is important for Kosovo itself 
to be recognized by a country like Israel. The Holocaust, of 
course, defines in many respects the importance of why the 
Jewish people need their own independent State. The ethnic 
cleansing or attempted genocide of the Kosovo population just 
25 years ago in a way defines for the Kosovo people the 
importance of having their own independent State. So at the 
symbolic political level, that is also extremely important.
    It also frees up, I would say, this U.S., let's say, 
advance in terms of helping to persuade other countries to 
recognize Kosovo. And, on the other hand, of course, for Israel 
it is extremely important as well. And it is extremely 
important for Israel to have the embassy in Jerusalem, which is 
traditionally viewed as the capital of Israel.
    And Serbia, I have not heard the latest on whether they 
have actually accepted this. They did sign it. Hopefully, they 
will go through with it.
    Mr. Chabot. Thank you very much.
    Mr. Chairman, my time has expired. I yield back.
    Chairman Engel. Thank you, Mr. Chabot. Thank you for the 
kind words.
    I now will call on a very good friend of mine for many 
years, someone who will succeed me as the chairman of this 
wonderful committee. Our districts are not far from each other. 
It is probably about a 20-minute cab ride from one district to 
another, maybe a half hour at most.
    And let me just say that I am glad that Mr. Meeks will be 
chairing this committee, because I know with him the committee 
is in good hands. We have through the years traveled together, 
talked about issues together. His philosophy is very much like 
mine when it comes to these issues, and he is well steeped in 
the issues that this committee will carry. I am delighted to 
see him as my successor, and I know that he will do a wonderful 
job. And we have traveled together, as I said, and have been 
personal friends for many, many years. And in my hours of need, 
he has always been there for me, and vice versa.
    So I want to just congratulate him, look forward to working 
with him, and now call on the next chairman of this wonderful 
committee, Mr. Gregory Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. And thank you for those 
words.
    And becoming the chair of this committee is bittersweet. It 
is bitter because you are my great friend and you have done a 
tremendous job as chair of this committee. We talk often. We 
strategize often. And I would like to say that will not change, 
so that I will continue to lean upon you and the experiences 
that you have had in your many great years as a Member of the 
U.S. Congress and as the chair of this committee and a member 
of this committee.
    We do have similar backgrounds. Many people do not realize 
that we both come from public housing. And as a result of that, 
we come with a specific type of view, world view on how we can 
make this place a better place. And you definitively, Mr. 
Chairman, have made the world a better place. And that is why 
you have streets named after you and stamps with your face on 
them is because you have made a significant contribution to 
this place that we call Earth, the United States and all over. 
And I thank you for that leadership, and I look forward to our 
continuing friendship as we move forward. And, as I say, you 
will be getting phone calls from me quite often. Thank you, Mr. 
Chairman, for all that you have done.
    Chairman Engel. Thank you. Thank you so much, Mr. Meeks. I 
am really, really touched and look forward, again, to continue 
working together. We served together in Albany in the State 
legislature, and we, of course, served in Washington for many, 
many years. And you have been a very welcome and important 
member of this committee in so many ways for so many times. 
And, as I said before, I feel a lot better knowing that this 
committee is going to be in good hands. So congratulations.
    And, of course, as in the past, whatever I can do to help 
you or help the committee, all you have to do is call on me. We 
have traveled together to many different places and our 
philosophies are very, very similar, if not the same. So I look 
forward to seeing you flourish, Mr. Chairman. And whatever I 
can do to help, as you know, all you have to do is call.
    Mr. Meeks. Thank you.
    Chairman Engel. So I call on you now to--if you have any 
questions you would like to ask, please go ahead and do so.
    Mr. Meeks. Thank you. Thank you, Mr. Chair.
    Let me first say that, you know, as far as foreign policy 
is concerned, one of the things that I think is important for 
us to understand is that if we do America First, that means we 
can get mistrust in our allies, and in this case, our European 
allies. If we do America alone, then we are not at the table 
and you have no one to lead.
    Leadership means bringing people along with you. Leadership 
means getting buy-in from others. You are not a leader if you 
are just doing it for yourself. And so, as I look at this 
issue, I think it is important for us to realize that we need 
the EU to do more, and we have got to make sure that we are 
leading them in that direction.
    So my question will be to you, Madam Secretary. You know, 
the European Union was not as large of an actor 25 years ago 
when you helped usher in peace in the region. In fact, my very 
first hard vote, the tough vote that I had was the year after I 
was elected to Congress. I got elected in 1998, and this was a 
very controversial vote, because when you decide that you are 
going to bomb a region, it is important. But I know and learned 
then early on that to stop atrocities is important. And I voted 
for what you led and directed and helped with President 
Clinton, because it was very important humanitarian causes and 
I think it was the right thing to do.
    But now, regardless of what one feels about the EU, we need 
them, I believe, if we want to get some progress here 
economically and politically. So my question is--and I think 
that everyone is talking about it--how can we and the Biden 
Administration better cooperate and work with Brussels, but, 
most importantly, where and how should we push them? Where are 
the right buttons to push them to be a part and how should we 
do that?
    Ms. Albright. Well, I will soon be calling you Mr. Chairman 
officially. I am delighted that you are going to have the role, 
and I look forward to working closely with you.
    Let me just say, I think that we need to recognize that one 
of the leverage aspects in terms of behavior change among these 
countries is that they are eager to get into the European 
Union. Therefore, I think it is important for us to cooperate 
with the European Union.
    And some of the criticisms that I have had of the recent 
activities, including what just happened in the talks that were 
held in Washington, they had not been coordinated with the 
European Union. And I think that we need to work with them and 
try to figure out what the various leverage points are in terms 
of democratic behavior, the partnerships you are talking about, 
and the fact that we, in fact, our strength, is operating with 
others. That is what the force multiplier is.
    And I have to say, I always love to talk about what we did 
in Bosnia and Kosovo, because it is a combination of diplomacy 
and the use of force and the economic tools. It is really using 
every kind of leverage that we have, and I think in doing it in 
partnership with the Europeans is a very important point. And 
the more that we partner with the European Union, that will be 
a strength in other parts of the world.
    We were talking about China and Russia. I think if we are 
concerned about their behavior, by doing it, making our points 
in combination with the European Union is a sign of similar 
values, operating together, understanding how to use the tools 
that are available to policymakers. So I think it is a very 
important part of the next stage here.
    Mr. Meeks. Thank you. And let me just ask real quick, I 
know I am about to run out of time, because in similar matters, 
EU member Bulgaria is blocking North Macedonia over ethnicity 
and language issues after they assuaged Greek concerns over 
name issues. Bulgaria questions Macedonia's identity and 
language.
    So how can the Biden-Harris Administration work with our 
allies in Brussels to ensure that the EU hopefuls of the 
Western Balkans are not being held in the waiting room by its 
neighbors?
    Ms. Albright. I think we have to make that very clear, that 
that is part of it. And, by the way, I find this, having spent 
so much time in terms of the name issue for what is now 
Northern Macedonia--when I was at the United Nations, we called 
it the FYROM, the former Yugoslav Republic of Macedonia. Nobody 
ever knew what we were talking about.
    And the fact that the Greeks were able to come to an 
agreement and this has been worked on so hard, I think it is a 
tragedy in so many ways that the Bulgarians, for their domestic 
reasons, have taken this up. And they need to be--that needs to 
be raised, if they really are--how they fulfill their 
membership duties.
    So I think it is a very important issue that undermines 
what we are trying to do generally in the Balkans is to get 
cooperation in terms of economic and political issues.
    Mr. Meeks. Thank you, Madam Secretary. I believe my time 
has expired.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Chairman. Again, I look 
forward to working with you.
    Mr. Perry.
    Mr. Perry. Thank you very much, Mr. Chairman. We are going 
to miss your service here. Not to say that we will not enjoy 
our friend Greg Meeks, which we have a lot of spirited 
conversations in the locker room and otherwise.
    But that having been said, Mr. Bugajski, I am wondering, it 
has been 25 years since the Dayton Accords, which were supposed 
to be a transitional arrangement to allow Bosnia to work out 
its differences without war, without the violence and the 
conflict, and come up with some better form of government that 
served them all well, but it has turned into the de facto 
government over time. And even after 2 years now, it is my 
understanding that they have yet to form--2 years since their 
most recent election, they have yet to form a government.
    Their parliament has not met I do not think one time, one 
single session. The people of Bosnia are required to fund 13 
different governments and parliaments and this rotating trio 
presidency and a total of 149 ministries. To the extent that 40 
percent of employed workers over the--or there is a brain drain 
where 40 percent of employed workers are over the age of 50, 
and 20 percent of the inhabitants of the country are on a 
pension.
    What do you surmise is the legitimate--you know, and that 
does not even mention what China is doing, what Russia is doing 
inside the country with a vacuum of governance, so to speak. 
What do you predict will be the long-term outcome of what seems 
to be a country that is stuck in time at the moment?
    Mr. Bugajski. Thank you very much for that question. I do 
not think any status quo lasts indefinitely, particularly when 
the country has been so battered by economic distress as a 
result of the pandemic. As you said, it is stuck in a sort of 
vortex of bureaucracyfiefdoms, corruption, favoritism, and 
nationalism, that sooner or later, that something is going to 
give, something is going to explode.
    And I think it is very important for us to engage in a 
major reform process, working together with the European Union, 
to construct a proper constitution. Remember, Dayton was meant 
to end the war and to give everybody a stake in the country. It 
was not intended to lay the groundwork for entry into 
international institutions through a fully functional 
authoritative State.
    So I think we need to work--and I mention this in the 
testimony--on constitutional reform, administrative reform. Dan 
has mentioned this, which I think is a good idea, it is a long-
term process of actually curtailing the entities which combat 
unity, which oppose unity, as well as some of the internal 
arrangements, some of these layers of bureaucracy in government 
that simply Bosnia cannot afford and nobody can afford at this 
point.
    Without that, what I fear is that at some point the 
nationalists in the Republika Srpska are basically waiting for 
the moment that this is no longer viable and they then break 
away from Bosnia and declare an independent State, and Russia 
will back them. And it puts, of course, Serbia in a very 
difficult position. We need to avoid that scenario, because 
that will be bloody. This time I think we need to prevent a war 
by acting early rather than coming in after the war already 
begins.
    Dr. Serwer. If I may followup on that, I agree entirely 
with Janusz. I think we have to be aware, though, that the 
Europeans have some very important cards to play in Bosnia and 
Herzegovina. One is a lot of money, and they can use that money 
to influence things there.
    The second is troops. We do not have a significant--we may 
have a few soldiers, but we do not have a significant troop 
presence. Even the European troop presence is very small. The 
problem is it is spread out all over the country. It needs to 
be where the war might occur, where secession by Republika 
Srpska can be prevented. And that happens to be this 
northeastern town of Brcko, which was the site of some of the 
most fierce fighting during the 1990's war. And so all of them 
should be put there. They should have clear backing by NATO as 
well.
    We can influence events in Bosnia and Herzegovina also by 
being very clear that if there is a popular movement for 
constitutional reform, that it will be protected, that it will 
not be repressed, as several popular movements that arose in 
recent years have been repressed. We cannot be permitting that 
to happen. And Europe has strong influence, due to the money 
and the troops. We have strong influence because of our history 
with Bosnia and Herzegovina. Together, I think we can help to 
promote the idea of constitutional reform, which is 
fundamental.
    I really do not think that any change in the electoral 
system or any administrative changes will suffice to fix Bosnia 
at this point. The Dayton agreements are based in the 
constitution and it is the constitution that needs to be 
changed.
    Mr. Perry. I thank the witnesses. Having spent a year in 
uniform in Brcko, I agree with your assessment, at least 
broadly speaking.
    Thank you, Mr. Chairman. I yield.
    Chairman Engel. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And let me join with 
my colleagues in wishing you the very best and thanking you for 
your long service to the Congress and certainly to our 
committee. You have set a standard of decency and civility that 
I wish governed all committees in Congress. And I know Mr. 
McCaul helped abide by that spirit and that ethos, and I 
appreciate both of you doing that. And thank you, and I wish 
you all the best as you branch out on new endeavors. And I know 
you can look back on your career here in Congress with great 
pride, and you should.
    Chairman Engel. Thank you, Mr. Connolly.
    Mr. Connolly. Mr. Bugajski, I was really almost--I was 
really struck by your observation that long term in the 
Balkans, particularly in Serbia, the Russians are going to 
continue to be influential, but the longer term influence to 
watch is that of China.
    And when I look at sort of history, right, that is an 
extraordinary thing to say. I mean, who would ever have thought 
the Chinese would be a dominant influence in the Balkans, say, 
20 years ago or certainly 100 years ago? I mean, it was Czarist 
Russia that helped determine the beginning of World War I, in 
coming to the aid of Serbia against the Austro-Hungarian and 
German response to the assassination of Archduke Ferdinand.
    So I am not questioning that, but I wanted to give you an 
opportunity to expand. What did you mean by that? Why do you 
think longer term in the Balkans it is Chinese influence we 
need to be focused on?
    Mr. Bugajski. Thank you very much for that question. Let me 
begin with why Russia is not a longer term danger. Russia is a 
country in serious decline, economic decline. Its economy is 
the size of a medium-size European State. China has the second 
largest economy in the world. Russia has internal problems with 
its nationalities, with its regions, with increasing public 
unrest, with increasing opposition to Putin. There may even be 
power struggles during the secession period over the next 4 
years. Russia faces major internal problems.
    China, on the other hand, unless, of course, there is 
opposition to the Chinese Communist Party from within, is in a 
different stage. It continues to be a very dynamic country in 
terms of its economic growth. It does not face the sort of 
internal contradictions and conflicts that Russia does, and it 
is increasingly--and China has always looked at the longer 
term. In other words, it is not--they do not even have to look 
at secession cycles, because of the dominance of the Communist 
Party.
    But they are looking eventually to replace Russia as the 
major rival of the United States. And the best way to do that 
is to increase their influence, not only militarily in East 
Asia, South Asia, and other parts of the world, but 
economically, politically, diplomatically, culturally, and 
through the media.
    And it is precisely what they are doing, not only in 
Europe, but in other continents. But because Europe is our 
concern here, and the Balkans in particular, this needs to be 
watched very, very carefully over the coming years.
    One other thing I would add, how Russia and China cooperate 
in terms of undermining U.S. influence and the European Union 
and NATO and so forth, that is something that needs to be very 
carefully watched, scrutinized. And I hope our intelligence 
services are also looking at the connections between Chinese 
and Russian intelligence services and how they work to 
undermine the West.
    Mr. Connolly. Two points about that. One is you can add--in 
terms of Russia's diminishment as a power, you should also add 
the demographic imperative. I mean, the shrinkage of Russia's 
population over the next 40 or 50 years is unbelievably 
dramatic, and that is going to create a whole set of issues on 
top of everything else you listed.
    And I really appreciate your perspective on China. I would 
just point out that I just did a white paper for NATO, NATO 
Parliamentary Assembly on China. And what is so striking is 
that, frankly, NATO documents do not even acknowledge China 
exists, let alone that there is a challenge or a threat until 
the last few years. I mean, if you go back 10, 20 years, no 
NATO document even acknowledges China as an entity, let alone a 
clearly emerging world power. So I think you are quite right to 
be focused on China and its growing influence in theaters we 
are not used to their playing in.
    And building on that, Madam Secretary, you talked about 
maybe China is reevaluating whether it can afford the BRI, the 
Belt and Road Initiative. Let me try out, from a foreign policy 
point of view, sort of a contrarian view that may have some 
validity, and that is that putting aside whether they can 
afford it or want to continue with it, that in many ways it is 
a double-edged sword for them; that when they, you know, sort 
of entrap nations into their fiscal web, there is a lot of 
resentment. There are a lot of debt management issues. Look at 
Sri Lanka and Hambantota. And, you know, you get shoddy 
workmanship. You get only Chinese labor often, and you get a 
debt overhang that really cripples a country.
    And over time, could that create a backlash? So instead of 
building goodwill, actually, China loses ground with a lot of 
these countries. I do not mean by that that we should not 
compete or we should not be concerned, but isn't there another 
aspect that is potentially negative for China that maybe we 
have an opportunity to examine and to work with? Your views.
    Ms. Albright. Well, thank you. I have to say I was very 
surprised in reading about what--can you hear me?
    Mr. Connolly. Yes, ma'am.
    Ms. Albright [continuing]. Reading that this morning, 
because I have been saying that the Chinese must be getting 
very fat, because the belt keeps getting larger and larger. 
They are everywhere. They have been in Venezuela and a number 
of places.
    I do think, however, that we may be overestimating their 
economic prowess in terms of what is happening to them at home. 
And so I believe it is going to be very important for all of 
you and the executive branch to keep very close track of what 
China is doing in its own region. The most recent regional 
trade agreement with southeast Asia that went through, we were 
not a part of it. They are not giving up on having an extended 
influence.
    The other point that you raised, from the things that I 
have seen, they have run into problems in countries where they 
have gone. They initially in some of the countries, in Africa, 
for instance, when they wanted to build a road, we had 
environmental problems and they said, where do you want it? And 
the countries were eager to accept it. And then they found that 
they were part of a debt trap or that the workers on it were 
Chinese that were imported, so it did notincrease their labor 
productivity. And they are beginning to see the problems.
    And so I think that what is going to have to happen, we are 
going to be very astute in looking at what the threat is from 
the Chinese, more nuanced, frankly. I mean, they will be 
adversaries, competitors, and cooperators in some things. And I 
think it is going to be major, and it is something that we need 
to have agreements with and cooperation with the Europeans, 
which had not been happening.
    So I do think--but they are trying to--it has been 
fascinating to follow some of the things they have been doing 
in Europe, because they have been connecting. They have been 
buying ports or investing in major industries that are basic to 
the existence of X countries.
    So I am not willing to say this has all changed, but what I 
find interesting is a questioning. And there is generally a 
questioning by the Chinese of how the United States is going to 
operate in the Biden Administration.
    Mr. Connolly. Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Connolly.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. And I would like to get 
one of those stamps with your face on them before you leave. It 
has been a pleasure working with you.
    I find this a very interesting hearing. And I think Mr. 
Connolly, the last speaker, talking about China, I think where 
we have seen China really step up is after the 19th Chinese 
Communist Party in 2017, when Xi Jinping very bluntly and 
boldly said, it is time for China to take the world's center 
stage. And I think we have seen that escalate, and I think we 
are seeing the materialization of that.
    Secretary Albright, you were talking about the ability to 
go in and do these infrastructure projects and partnering up 
with the EU. And we can look what happened in the past, I mean, 
we have got to remember that. Where can we make a significant 
change or difference in this region, partnering with the 
countries that want to, that recognize Kosovo, and those 
countries in the EU that also recognize those?
    Actually, that is for everybody out there, the three 
witnesses. We will start with you, Secretary Albright.
    Ms. Albright. Well, I do think that we need to recognize 
that we have common aims here. It is to make the Balkans a 
stable place where ethnic fighting is not the major aspect and 
then as it is coupled with corruption. That is really what has 
happened in Bosnia is that there has been a capturing of the 
State by those that do not have an incentive to have a 
democratic system, but in order to make the most money that 
they can off the divisions that are there. And the Europeans 
have the same goal. And so I think we need to figure out how we 
can operate through a variety of diplomatic means.
    And then I do believe in the role of the private sector in 
many ways in developing civil society, helping with education, 
working in order to improve the living standards of people 
there so that they have a stake in what is going on.
    The real issue--and I meant to bring this up in probably 
every answer--is we think that--it was not easy to get the U.S. 
involved in trying to do something in Bosnia and Kosovo. The 
Europeans were not interested. It took a while for the United 
States to get interested. Once we were, we did manage to end 
ethnic cleansing, but we did not really manage to stay involved 
enough in terms of looking at the evolution of these countries 
that have had a complex historical background.
    And I think that that is how we have to look at things, in 
partnership with the Europeans, to make them all normal 
countries that will want to function to help their own people 
and not just themselves as corrupt officials.
    Mr. Yoho. Okay. Dr. Serwer?
    Dr. Serwer. Yes. I wonder if I could focus a little bit on 
Serbia, because I think Serbia is vital in both Bosnia and 
Herzegovina and Kosovo. So if Serbia were more cooperative, all 
the issues in the Balkans would be easier to resolve.
    There is leverage that the Europeans have on Serbia, 
frankly, more than the Americans. I think the Americans are 
relatively marginal. I do think we should be very clear with 
Serbia about its destabilizing efforts in Bosnia with Kosovo 
and in Montenegro now as well. But it is the Europeans who have 
the purse strings with respect to Serbia, and they have shown 
some willingness to begin to use them. The Europeans have 
decided that there will be no further opening of chapters of 
the accession negotiations this year due to Serbia's turn in 
the Russian and Chinese direction. Though they do not actually 
say that, that is the tacit understanding.
    Mr. Yoho. Let me add something else here. The border 
disputes--and I know this went against the grain when President 
Trump said that he would be willing to look at those two 
countries, looking at their border disputes. How much does the 
border disputes come into the conflict that they have now? And 
if you would answer quickly on that, we will let Mr. Bugajski 
answer too.
    Dr. Serwer. There is no border dispute. The border boundary 
is well understood where it is. It was a question of whether 
they wanted to exchange territory----
    Mr. Yoho. Right.
    Mr. Serwer [continuing]. And human beings. And that 
proposition has been unpopular in Serbia, in Kosovo, throughout 
the region, and in the United States. It is a very bad idea 
that risks reigniting violence.
    Mr. Yoho. Okay. Mr. Bugajski, do you have any thoughts on 
either one of those questions, development and the borders?
    Mr. Bugajski. Yes. Thanks very much. Regarding borders, I 
fully agree with Dan. I think any attempt to change borders to 
exchange territory is going to have a very negative ripple 
effect throughout the region. You are going to encourage 
nationalists and irredentists to claim territory in neighboring 
States. You are going to have a lot of uncertainty about what 
the final arrangements will be. No investors are going to come 
in when borders seem to be unsettled. So you are going to 
create the sort of mess that only Russia will benefit from.
    Mr. Yoho. Okay.
    Mr. Bugajski. Well, maybe some nationalists also. So I do 
not think it is a good idea at all.
    A very quick point. I think we tend to forget that when we 
talk about European Union, European Union is also NATO. These 
are our European allies. We have to work together in NATO as 
well as working at the institutional and financial level in 
European Union.
    One of the things I think is extremely important, we cannot 
withdraw the limited number of troops we have in Germany. We 
need to strengthen our contingence. We need to remain in Kosovo 
until Kosovo is a member of NATO, which eventually it should 
be. And we should wean Serbia away from too much dependence on 
Russia. I mean, if we follow those guidelines, I think we are 
going to strengthen the region.
    Mr. Yoho. Thank you. I am out of time.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Yoho.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. And, Mr. Chairman, let 
me start by joining in my colleagues in expressing my deep 
appreciation to you for your decades of service to your 
constituents in the House, but especially to your leadership of 
the House Foreign Affairs Committee. Whether those in Kosovo, 
those of us who so strongly support the U.S.-Israel 
relationship and the pursuit of a two-State solution and those 
who care about human rights all around the globe, your 
leadership is something that has left its imprint on this 
committee and on countries all throughout the world. We are 
really grateful for it and better for it as well.
    Chairman Engel. Thank you, Mr. Deutch. Thank you.
    Mr. Deutch. You are welcome, Mr. Chairman.
    Madam Secretary, a longstanding cornerstone of U.S. foreign 
policy both here and in Congress and in the executive branch 
where you worked is promoting democratic institutions and 
values. And since the early seventies, every Administration, 
Democrat and Republican, has leveraged U.S. resources to 
bolster the international community's newest democracies. And 
over the last decade, more than $2 billion in U.S. foreign 
assistance has been allocated each year for democracy promotion 
activities.
    So turning to the Balkans and the issue of China, I want 
just to get your opinion broadly. As we are coming out of the 
Trump Administration and preparing for the Biden 
Administration, I would like to give you the opportunity to 
talk about the importance of democracy promotion, particularly 
as countries in the region face the efforts of the Chinese 
Government to reach out to vulnerable economies with soft 
loans. Montenegro, Serbia, Macedonia, Bosnia, and Herzegovina 
have all been prime targets.
    If you could speak to those efforts, what it means for us 
to push back by promoting democracy and whether we have learned 
anything from the Trump Administration that should dictate the 
direction that the incoming Administration should go.
    Ms. Albright. Thank you very much, Congressman, for that 
question. And I do think that it is essential. America has been 
proud of our democracy and we have, in fact, talked about how 
to promote democracy. You cannot impose democracy. That is an 
oxymoron.
    And I am chairman of the board of the National Democratic 
Institute, an organization that was actually started by 
President Reagan, understanding that democracy had to explain 
itself well.
    We do have offices in Pristina. I was just there, not this 
last summer, the summer before, with President Clinton. And to 
followup on something that the chairman said, I have never been 
to a country that has been so grateful to the United States in 
my entire life as when we were in Pristina, with the flags and 
the people cheering.
    But I think that the importance of democracy is that it 
establishes a rule of law. It does, in fact, allow for 
corrections if there are mistakes. It does develop a civil 
society that wants to participate, and it does, in fact, create 
a way for problem-solving that the people are involved in. And 
so I think it is very important. There are those who wonder why 
is it good for the United States.
    By the way, you and I did just spend some time dealing with 
the Truman scholars, the Truman Foundation, and talking about 
President Truman and what he had done, especially in this part 
of the world, with the Truman Doctrine and caring about what 
was happening with Greece and Turkey and a fight for democracy 
against the spreading of communism.
    So this is not something new. It is in our DNA in many ways 
to do something. And I do think the following thing, just to 
put two things together: I think that democracy and economic 
development go together also, because, as I put it, people want 
to vote and eat. And democracy has to deliver.
    And I think understanding the complexity of the building of 
civil society, the rule of law, education, and the 
possibilities for people to participate is in America's--it is 
good for America and it is good for the people, and it is 
especially good if we can do it in partnership with others.
    Mr. Deutch. Thank you. Thank you, Madam Secretary.
    I only have a few seconds left, so, Mr. Chairman, let me 
thank Secretary Albright and also our other witnesses, Dr. 
Serwer, Dr. Bugajski. This has been an exceptional panel and 
discussion, and I hope before we finish we will get to hear a 
little bit more about the ways that the U.S. Government can 
counter Russian propaganda and disinformation in the Balkans, 
since we have two great experts who will be able to speak to 
that as well.
    But for now I will yield back. Thank you so much.
    Chairman Engel. Thank you, Mr. Deutch.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. And again, I have 
said it before, but I want to say again, working with you has 
been an absolute pleasure. I appreciate your leadership on the 
committee, your attempts to reach bipartisan solutions when we 
can. And I think your legacy will certainly live on in this 
committee, I hope. So thank you for the great work.
    And I appreciate you holding this hearing, because I think 
it is an area that we have sometimes forgotten about that is 
extremely important. And I think Europe has forgotten about it 
sometimes until we have to, it confronts us. And I want to 
thank all the panelists for being here as well.
    My first question I will direct to Secretary Albright. 
Thank you for doing this. Thank you for your many years of 
service. We have been talking a lot about, you know, China 
increasing their footprint in the Western Balkans, but I want 
to ask you specifically why. I think it is important. What is 
their strategic goal here in the end state, if you would not 
mind?
    Ms. Albright. Thank you very much, Congressman. And I have 
to say, in bipartisanship, it has been a pleasure working with 
you. Thank you very much for everything that you have been 
doing.
    I do think that the Chinese are trying to show that they do 
have a world grasp, that they do have interests. They are 
trying, in fact, to expand their reach. But I also do think 
that they are looking for very specific aspects in terms of 
working on energy issues, because they have an energy problem 
themselves.
    They are trying to sort out how to strengthen their own 
capabilities abroad, one in partnerships, but also what they 
can do to extricate whether they are valuable minerals or 
special materials. They are not doing it just in terms of being 
altruistic. They are reaching into other countries to link them 
to the Chinese system and also to get things that they need for 
their own economy.
    I do think that they are experiencing problems. I think we 
need to understand that. And we need to develop policies that 
make it clear to them that they cannot do the kinds of things 
that they are doing and that we have also an awful lot of 
influence and that it is a different kind of polar system that 
we are involved in.
    We are not going back to the status quo ante, no matter 
what. We are living in a different era where there are 
different tools. They know they are very good at some of the--
obviously, on new technology, on cyber, what they are doing in 
terms of propaganda with Huawei, a whole host of other tools 
that they are using that we need to be more conscious of.
    Mr. Kinzinger. Well, thank you. And I think, you know, 
Western Balkan countries joining CCC's Initiative as an 
alternative to investment from China and Russia would be 
important. I will come back to that if I have time, but I do 
want to ask Mr. Bugajski, how can the U.S.--I am going to go 
off what Mr. Deutch kind of teed up here a little bit. How can 
the U.S. help push back on Russian and Chinese malign influence 
in the Western Balkans, particularly in Serbia, through the 
influence of Sputnik and Russia Today, RT? How can we help to 
push back against that? And if you have any comments on the 
other stuff too, that would be great.
    Mr. Bugajski. Sure. Thanks very much for the question. 
Disinformation, there are tools to counter disinformation in 
the region. I think we need to look at the example of the 
Baltic States who very adroitly, let's say, pushed back on 
Russian disinformation, located the sources, tried to correct 
particularly the most damaging kind of disinformation.
    And in Serbia, it is a little bit more difficult, because 
of the degree of Russian penetration in the media, both in the 
local media but also what they broadcast into the country and 
what is believed by people. We cannot, obviously, fight all 
disinformation, but there needs to be a narrative of truth that 
the West, I think I want to say the West European Union, 
working together with the United States, can help promote. And 
I do not mean at governmental level necessarily, but working 
with local organizations, working with local media, news 
outlets, social networks and so forth.
    There are certain things that are simply not true, 
particularly the propaganda that is pursued by Russian and 
Chinese sources against NATO and the U.S. that can be 
corrected, that can be, let's say, the record straightened. So, 
I mean, there is a lot of work to be done there, and there are 
countries we can learn from.
    Mr. Kinzinger. Thank you.
    Dr. Serwer. May I have a word?
    Mr. Kinzinger. Sure, sure.
    Dr. Serwer. You know, Russian propaganda would not be 
nearly as successful in Serbia if the Serbian Government did 
notwant it to be successful. Frankly, the media there is 
heavily under the thumb of President Vucic. And that is where 
we should direct some of our efforts, to President Vucic and 
making sure that he understands that opening up the media space 
is a vital component of qualifying for membership in the 
European Union.
    I should also add that we are going to need a major revival 
of Voice of America and the other international broadcasting 
agencies after this Administration. They are doing tremendous 
damage, I think, to Voice of America in particular and I would 
like to see it restored. And the idea of getting rid of the 
Balkan Services there has persisted for decades, and that idea 
should be dropped.
    Mr. Kinzinger. Thank you.
    And I will just finish up by saying, you know, not only is 
it providing the structure for that, but also we have to have 
people be responsible for determining what is true and what is 
not. And we see this even in our own country on both sides of 
the aisle, quite honestly, where, you know, people accept the 
news that comports with what makes them feel good and rejects 
the stuff that does not. And you can put facts out there all 
day long, and a fact is always questioned by the person putting 
it out or does not want to agree. But, anyway, that is going to 
be a longer term discussion for many hearings in the future.
    With that, again, Mr. Chairman, thank you so much. Thank 
you to the panel. I yield back.
    Chairman Engel. Thank you very much, Mr. Kinzinger.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, and thank you for 
your service. I think this hearing demonstrates more than any 
words just your commitment and your legacy and the involvement, 
how you have made a difference, not just internationally but 
here at home. I look forward to continuing to work with you on 
these issues and others, which I am sure you will be very 
active in whatever capacity in pursuing. So thank you again, 
Mr. Chairman.
    Chairman Engel. Thank you. Thank you, Mr. Keating.
    Mr. Keating. You know, we have talked repeatedly about the 
importance of working with the EU, the multiplier effect, how 
important, how they actually are better leveraged than we are 
in many capacities.
    However, as a prerequisite to being as effective as we can 
be, we have got a lot of work to do with the EU first. We are 
involved in tariff disagreements under the guise of security 
concerns. We are not pursuing our own free trade agreement 
there, which in the wake of that kind of agreement will have 
enormous influence on these countries in the Balkans as well as 
countries like Turkey who want to get involved.
    So how important is it that we cleanup some of the areas 
with the EU directly if we are going to be successful in 
working with them in the Balkans? I would ask Secretary 
Albright first.
    Ms. Albright. Well, I think it is a very important 
question, because we have spent more time actually criticizing 
the EU and seeing it as a bunch of faceless bureaucrats, and 
they have their own problems. I mean, it is interesting, in the 
last few days, again, in terms of the way they are operating 
about Brexit and the end of the German presidency, the shifting 
of the EU presidency.
    I do think that we still see them as our major allies in a 
number of different ways. I can tell you personally--because I 
was born in Europe, I seem to get a lot of calls from 
Europeans. And when there was a rebalancing to Asia, a lot of 
the leaders would call me up and they would say, you have 
abandoned us. And I said, no, you used to be the problem, now 
you are part of the solution, and we need to work together on 
other parts of the world. And I think that does need, in fact, 
to be enlarged in a number of ways.
    We and the EU have more in common even when we are not 
operating very well. I do think this has come up a couple of 
times, the relationship between the EU and NATO and whether the 
Europeans have their own defense identity. And the problem 
always is Turkey, because Turkey is in NATO but not in the EU.
    And so there are any number of issues, but I do think more 
time needs to be devoted to figuring out how the EU works and 
what we can do with them, because our major directions are very 
similar, but we cannot just kind of think that we think exactly 
the same on everything. That requires diplomacy. And all we 
have done so far in the last few years is just insult them. So 
I think instead, we might want to figure out what we have in 
common and working together.
    Mr. Keating. I think trade and economic development are 
helpful. But the coronavirus has really, awful as it has been, 
it has laid bare some of the weaknesses we have in common, not 
just with Balkans, with our European allies and ourselves. We 
have weaknesses in the production chain, and we are working in 
the U.S. to have our own independent production chain of bare 
minerals, and many of the other medicines and other things we 
need, but it provides an opportunity.
    Besides just having our own independent chain, having 
European Union allies have their chain, I think there should be 
a secondary ring of security on having production chain, 
valuable medicines, agreements, byproducts and it provides an 
opportunity for us to work together again.
    And this is something that came up, I believe, in your 
testimony, Madam Secretary, or one of the one of the witnesses 
today, that that is an issue here. People are recognizing that, 
and the dependence on China, in particular, and how this would 
be an opportunity to work together.
    Ms. Albright. I do believe that we need to see this as an 
opportunity, and I think that the pandemic has, in fact, proven 
the importance of having more cooperative activity. And, as I 
said, we are in a new era. There are new tools we need to 
figure out how to operate in the third decade of the 21st 
century. That what is we are doing and developing, trying to 
figure out which institutional structures work, which require 
some refurbishing and fixing. And I hope that that is something 
that the Biden Administration, with your help, is going to take 
up as an activity to really be ready for this part of the time.
    Mr. Keating. Well, thank you.
    And I would say to all our witnesses that we are--we will 
pursue, as I am sure a full committee, but also as a 
subcommittee, which hopefully I will chair again, dealing with 
the Turkish issue in greater detail.
    Thank you all for your testimony on this important issue.
    And I yield back.
    Dr. Serwer. Congressman, could I possibly add a word here?
    Chairman Engel. Certainly.
    Dr. Serwer. It seems to me the Biden Administration will 
view the EU as a force multiplier, and that is what it is for 
many, many issues. But in the Balkans there is a particular 
problem, and that is that there are five non-recognizing 
countries in the EU that do not recognize Kosovo's 
independence, and it has not been the kind of cohesion that is 
really required.
    The right American approach to that is to do its best to 
cooperate with the EU as a whole, but to make sure that Germany 
and the United States are on the same wavelength, along with 
the U.K., because that combination, U.K., Germany, and the 
United States, has 85 percent of the influence.
    Mr. Keating. Thank you.
    Chairman Engel. I thank you, Mr. Sewer.
    And, Mr. Keating, thank you.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, for organizing this 
very important hearing.
    And I thank our witnesses for their time, and certainly for 
their expertise.
    I represent the greater St. Louis region which is home to 
the largest Bosnian community outside of Bosnia-Herzegovina. 
Our Bosnian neighbors fled to St. Louis after war criminal, 
Ratko Mladic, initiated that horrific genocide against majority 
Muslim Bosniaks. I am proud that the United States has been a 
force for good in the Western Balkans, and especially in 
Bosnia, where it has promoted strong democratic institutions, 
peace, and prosperity, and the rule of law after years of 
ethnic strife and tragic wars.
    The U.S.-brokered Dayton Accords ended the Bosnia War 25 
years ago, but I am deeply concerned that malign powers--and we 
have discussed it a little bit here, like Russia--fearing 
closer cooperation between the United States, the European 
Union, and Balkan partners, are endangering the progress that 
we have made.
    Russia maintains strong political security and economic 
ties to Bosnian-Serb majority Republika Srpska, and support 
Serb President Dodik in his efforts to resist reform.
    Mr. Bugajski, how does Russian influence in Bosnia 
undermine the Dayton system? And how can the U.S. increase 
Bosnia's resilience to Russian influence?
    Mr. Bugajski. Thank you very much for that question.
    Just I would say this: Just as the separatists in Bosnia 
used the entity system to threaten with separation, Russia uses 
the entity system to undermine Bosnia integrity and its 
progress toward European Union and NATO. Remember, one of 
Russia's main policies is to prevent Bosnia and other countries 
from entering the European Union, from entering NATO. We saw 
this even in the case of Montenegro, where the GRU, the Russian 
military intelligence, promoted a coup d'etat against the duly 
elected government.
    What I fear is in Bosnia, they could also State some kind 
of provocation using, as you said, people like the Republika 
Srpska president on the Bosnia presidency, and other separatist 
voices, maybe even amongst Croats, some of who the nationalists 
is pushing for a third entity, which would also undermine 
Bosnian integrity.
    I would say we need to be very extremely careful of those 
links, those linkages Russia has with the Serbian side, but 
also the Croatian side, and also with some of the Muslim side 
in terms of energy linkages, economic linkages, corruption, the 
supply of weapons, for instance, the Republika Srpska energy. I 
mean, all these areas in which Russia uses, all these tentacles 
that Russia uses to squeeze the country and to keep it 
unstable. I think those need to be cut.
    Mrs. Wagner. Dr. Serwer, I understand Bosnia's progress 
toward NATO membership, and European integration has slowed in 
recent years. But what domestic and international factors are 
preventing Bosnia from making the reforms necessary to join the 
European Union? And how can the United States best support 
Bosnia's reform process?
    Dr. Serwer. It is the Dayton agreements themselves, which 
include the current Constitution of Bosnia-Herzegovina, that 
create the problems that Bosnia is facing, the dysfunctional 
governments, in particular, and its inability to move forward 
with the kinds of reforms that EU membership and NATO 
membership demand.
    I do not really see a way out of this. I see ways of 
improving this situation at the margins, but no real way out of 
it, without what would basically be a new Constitution for 
Bosnia-Herzegovina.
    We came very, very close in 2006 to amending the Bosnian 
Constitution in some very important ways. I supervised the 
people who worked on that when I was at U.S. Institute of 
Peace. But the essential reform in that proposition in 2006 is 
still needed today, and that reform is to give the Sarajevo 
Government all of the authority it needs to negotiate and 
implement EU requirements----
    Mrs. Wagner. And--and----
    Mr. Serwer [continuing]. And empower the municipalities to 
deliver services to the citizens.
    Mrs. Wagner. Uh-huh.
    Dr. Serwer. The entities and cantons are the relics of the 
war, and they are just going to have to fade, and eventually, I 
think, disappear in order for Bosnia-Herzegovina to truly 
qualify for EU membership.
    Mrs. Wagner. Secretary Albright, I worry that Russia and 
China are working to drive a wedge between the United States 
and the European Union and the Western Balkans.
    And how should the U.S. and EU deepen engagement with 
Balkan countries in order to most effectively promote rule of 
law, anticorruption measures, and democratic governance?
    Ms. Albright. They definitely try to drive a wedge between 
us, or among us all, and I think partially--this may sound too 
simplistic--we have to pay attention. We have not paid the kind 
of attention that is necessary to this area, feeling kind of, 
Oh, well, we did everything that we could. We--obviously, this 
is a complex evolution and, as been said, Dayton ended the war, 
but it created a fairly crazy system that is very hard to 
follow and the corruption is something that is the problem.
    But we have to pay attention, and we have to understand 
that it is in U.S. national interests to understand what is 
going on, and to use whatever influence we have in terms of 
economic development, in terms of and some conditionality on 
it.
    It is interesting, because as I travel around the United 
States--and I have been to your district--and Bosnians, you 
know, people are very grateful for what we did, and then they 
want to know, now what? So I understand why you are asking the 
questions, because we have not paid the kind of attention that 
is necessary.
    Mrs. Wagner. Thank you.
    And I could not agree more and, yes, we--I get these 
questions all the time from the Bosnian community in St. Louis, 
which we value so very much.
    So I thank you all. I am over my time.
    I yield back, Mr. Chairman. Thank you.
    Chairman Engel. I thank you, Mrs. Wagner.
    Mr. Castro.
    Mr. Castro. Thank you, Chairman. And thank you, Chairman, 
for all your years of work on Kosovo and the Balkans.
    And thank you to our witnesses, also, for your testimony 
today.
    I have a question about corruption in the Balkans. While 
the Balkan States have made significant progress in certain 
areas since the Yugoslav wars nearly 20 years ago, corruption 
remains a critical challenge. Persistent corruption fuels 
organized crime, enriches narrow interests, and undermines 
democracy. While powerful criminal networks have an 
international reach, and use these countries as important 
smuggling routes, prosecution and final convictions still 
remain weak.
    How can the United States make sure that loans and other 
funds are not used to empower and entrench nationalist leaders, 
and how can we use our financial leverage to ensure 
anticorruption measures are upheld by government authorities?
    And I pose that question to whoever on the panel would like 
to address it.
    Dr. Serwer. Maybe I can say a word about this.
    Congressman, the opposite of corruption is not anti-
corruption. The opposite of corruption is good governments, and 
good governments depends on having a good system, and the 
system in Bosnia and Herzegovina is opaque and politicians are 
unaccountable, and that is what needs to be changed.
    And I agree with the Secretary completely that America has 
not been paying the kind of attention that it needs to be 
paying in order to improve the situation, nor has the European 
Union, which has much more money at stake in the Balkans than 
we do.
    So we need to pay a whole lot more attention, but we also 
need to change the basic structures that make politicians 
unaccountable to constituencies, and, instead, accountable to 
party bosses who run their political parties in a very opaque 
way.
    And, you know, in Bosnia and Herzegovina, the need to be a 
member of a political party in order to get a job, that is just 
the way things are. The same thing happens in Kosovo. So we 
need to break that stranglehold that political parties, 
especially ethnically defined ones, have on the job situation 
that requires economic development, requires reform of the 
government system. It requires in Bosnia and Herzegovina, I 
think, constitutional reform as well.
    So it is not that you are going to have some sort of 
reform--some sort of anticorruption agency. They all have 
anticorruption agencies. That is not what works. What works is 
having a system that is transparent and accountable.
    Mr. Castro. Well, thank you for that.
    And I have got one more question with just under 2 minutes 
left. The NATO mission in Kosovo, KFOR, a NATO peacekeeping 
force in Kosovo since 1999, was authorized through a U.N. 
resolution. This arrangement is a successful way to provide the 
kind of international peacekeeping or peace enforcing work that 
can be helpful. What are the criteria that should be used to 
determine whether the job of KFOR is done and the force can be 
withdrawn, and do you think this peacekeeping arrangement can 
be used elsewhere?
    Ms. Albright. I do think one of the hardest parts is trying 
to figure out when to end the peacekeeping operation, but I do 
think that the very presence of people there shows an interest, 
that, otherwise, if they--if it were ended at the moment, that 
it would be something that would continue to make the people in 
the region think, Well, the rest of the world does not care.
    They are there, they have been very important, and I do 
think that they provide a sense of the outside world seeing 
what the difficulties are and being concerned about any 
outbreak of violence.
    Dr. Serwer. If----
    Mr. Bugajski. If I could just jump in to add one thing. 
Remember the NATO force, including the American contingent, has 
been gradually drawn down since the NATO force came in, in 
1999. So, we are talking about maybe 700 or so U.S. troops in a 
slightly larger, much still multinational contingent. I think 
they have to remain, because they are a strong symbol of our 
commitment to Kosovo's security, to regional security, and to 
the country's independence.
    And I would say this, and followup to what the chairman, 
Chairman Engel, was saying at the beginning. We need to pay 
more attention to building up a security force and defense 
ministry, security force, a security army in Kosovo itself. 
Every country in the region does have a fully functioning army 
that can defend its borders, defend its force.
    Montenegro, for instance, the country, a third of the 
population has its own force. Not large. It has to be 
professional. It has to be small, mobile. In that way, Kosovo 
will be in NATO rather than NATO being in Kosovo eventually. I 
mean, it is going to take time. But that should be an 
objective.
    Dr. Serwer. Exactly. I agree with Janusz.
    I would add, though, that mutual recognition between Serbia 
and Kosovo, and establishment of diplomatic relations I think 
would be an adequate signal to draw down the NATO--the KFOR 
forces even more, and I agree with Janusz also that Kosovo in 
NATO is the ultimate solution to NATO in Kosovo.
    Mr. Castro. Thank you.
    I yield back, Chairman.
    Chairman Engel. I thank you very much.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    Hopefully, you guys can hear me okay, and I just want to 
thank Chairman Engel and Ranking Member McCaul for holding this 
hearing.
    And I want to thank our witnesses for testifying before us 
today. I especially want to thank the Secretary for her 
service. I was a young infantry officer, ma'am, when you were 
at the United Nations, beginning to tackle these issues, and I 
appreciate your deep experience.
    As a physician and former military officer, I am alarmed at 
the impact of the Belt and Road Initiative in the Balkans and 
we transition from a unipolar world to a bipolar one. The quest 
for alignment with other nations is critical. We need our 
allies, probably more now than ever, and the Belt and Road 
Initiative is China's understanding of that strategic 
imperative.
    As for the Belt and Road Initiative, nearly all of the 
Balkans nations are participating with significant road 
projects in countries like Montenegro. We have seen this 
initiative used to exploit nations in the past in China's 
acquisition of allies through debt diplomacy. It is especially 
concerning in places like the Balkans where the region's 
history seems to too easily spill into global conflict.
    I am especially concerned in the wake of COVID. COVID-19 is 
devastating these countries right now with the daily case rates 
skyrocketing, and from what I can see, they were at a 
relatively stable number and now they are--their curves look 
like vertical lines, much worse than their peers to the West. 
This impact should have been avoided, had China simply alerted 
the world sooner and not chosen to use its cozy relationship 
with the World Health Organization to hide human-to-human 
transmission. Twenty-five Tennessee National Guardsmen just 
returned from NATO peacekeeping in Kosovo, and reported 
additional difficulties because of the pandemic.
    Countries like this are struggling with hospital capacity, 
and, in fact, Serbia is seeing a massive increase in death of 
elderly leaders, church leaders. Northern Macedonia, or North 
Macedonia has an outdated infrastructure, really bad pollution 
that is severe at this time of the year, and the virus is 
hitting them especially hard when folks are struggling with 
respiratory problems.
    A few quick questions, and Secretary Albright, I have two 
for you. You mentioned earlier, I think, when chairman or 
Ranking Member McCaul was talking about the Belt and Road 
Initiative, that you thought China was abandoning that. I would 
love to get some clarity on that, or a little more detail. And 
then I would love to hear what your thoughts are on how the 
Balkan people are seeing, viewing China in light of the COVID-
19 virus, and then also get some other folks' opinion on that 
from the panels.
    So thank you, ma'am.
    Ms. Albright. Thank you very much.
    And thank you for your service and having been over there.
    I do think, let me just say the only thing I know about 
what I said is that I just read it in terms of the fact that 
the Chinese are now concerned about the amount that they are 
spending abroad, and the fact that they are blamed for this so-
called debt trap, and not getting the kind of recognition of 
doing good works, that is, it does look as the selfish thing 
which it really is.
    I do not know if this is something that is really 
happening, or whether it is part of some new propaganda scheme 
of theirs to say, Don't worry about us. We are not really doing 
anything. And so, I do think we need to look into what their 
motivations are. There is no question in the number of 
discussions--and I am sure you have been a part of them--that 
we talk about China, and what is the China threat and how are 
we going to deal with the China threat?
    It is, as interested as I personally am in the Balkans, I 
do think that we need to--we are all going to have to focus on 
the China spread in a number of different ways, because I do 
not think that their activities are benign. They are trying 
to--they are major competitors. They have created this 
pandemic, or have not told us enough about it to be able to 
deal with it. I do think there are some areas where we want to 
cooperate with them, which is on climate change, that it does 
not take a stable genius to figure out that you need more than 
one country to deal with climate change.
    But I do think it is the most difficult issue we have, and 
I personally am going to try to figure out whether they are 
trying to cut down, or whether it is just a propaganda trick.
    Mr. Green. Yes, anyone who has read Sun Tzu would 
understand what you are saying. There is a very high 
possibility, I would imagine, that says just propaganda or some 
ruse.
    Your thoughts, though, on how the Balkan people are 
perceiving China in light of the virus?
    Ms. Albright. I think that that is hard to tell, because I 
am not sure that they are getting the kind of information in 
terms of the fact that it was--the Chinese had not talked about 
it early enough for us to be able to deal with it. I do also 
think that the Balkans are in an even more threatened place, 
because of what we know in terms of the immigration that is 
kind of going through the Balkans in order to get other parts 
of Europe. And so, they are on the front line of dealing with a 
lot of people coming from X place and not knowing. And I am not 
sure that the capabilities that they have to deal with the 
pandemic, whether they are really getting that kind of help 
from the outside.
    So, I think they are in a very difficult way, and they are 
not being regarded as seriously by some of the countries that 
could be helping them including us, frankly.
    Mr. Green. Thank you.
    I think my time is up, Mr. Chairman.
    Chairman Engel. Yes. I thank you, Mr. Green.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Thank you for holding 
this hearing and for your leadership in this area. You may be 
gone, but your legacy will certainly continue in this 
committee.
    As I said, we have heard several things mentioned that I 
hope we can get more information and I must say it is not often 
that we have a panel as distinguished and as knowledgeable and 
as respected as the one we have today. So thank you to all of 
you.
    What is the increasing role of Turkey? I hope we learn more 
about that, because we know Bosnia is a top recipient of 
Turkish aid. Erdogan has cozied up to the leading Bosnia party, 
the purchase of the Russian weapons, and also the stirring of 
more controversy and being more aggressive in Greece and 
Cyprus. So I think we do need to keep an eye on Turkey.
    Then what was mentioned by Ted Deutch about misinformation 
being used by the Russians, kind of infiltrating the media in 
this part of the world, we certainly saw that in the case of 
the Macedonia referendum. So it is happening, and I think we 
need to watch that.
    But the question I would ask you today--and if it has been 
covered, I am sorry I missed it, I do not think so though--is 
about the Mini Schengen agreement that had Serbia, Albania, and 
North Macedonia, whether it is free crossing of borders where 
you do not need a passport or work permits, allows them to kind 
of promote tourism, and also cooperation of not dealing with 
the virus. Do you think that will expand? Do you think that is 
a good thing? Do you think Kosovo will be included? And how can 
the U.S. promote that sort of thing and use it to our advantage 
to shore up democratic institutions?
    Ms. Albright. I personally think that it behooves us to try 
to get the countries and the Balkans to work together in some 
ways. That is not an easy thing to accomplish, given the things 
that we have been talking about. But I do think some kind of 
regional economic activities are a way of working together 
that, in fact, would help in the pursuit of other 
relationships.
    One of the issues, believe it or not, it seems kind of 
naive initially, but that if one could get various ethnic 
groups to actually work on a real problem to try to solve it, 
that they would then learn to work together and respect each 
other. So I do think that some activities that would show the 
regional aspect.
    And then the population, this is not a large area and I do 
think that, in fact, some kind of a Mini Schengen is not a bad 
idea if it is done with respect and does not--and this is a big 
underline--is help to make even more corruption. That is the 
thing that one has to be careful of is that if it is, that 
there are some lines that would make clear that that cannot 
happen. Otherwise, there would be no support for it.
    Ms. Titus. In the role of
    [inaudible], can civil societies be part of that?
    Ms. Albright. I think very much so, because I think that 
the issue of civil societies and the rule of law and kind of 
saying that that is the power of democracy are civil societies, 
and the question is how to empower them and have them see that 
they do have a right and a duty to really talk about the things 
they do not like.
    The hard part here is that there have been now decades of 
this anger among various ethnic groups, and what needs to be 
done is to try--by the way, the truth is that many of the 
people in this area actually used to be part of a country where 
they intermarried, and that they really--there was a--there are 
many faults to the former Yugoslavia, but some it really that 
there was this interaction among the various groups. And so, I 
think civil society, outside groups, can help on that.
    Dr. Serwer. If I may add----
    Ms. Titus. I would say----
    [inaudible] India.
    Ms. Albright. Yes.
    Ms. Titus. [inaudible] With very little resources have a 
great deal of impact some of the----
    [inaudible] Development of those civil societies----
    [inaudible]. They are our partners----
    [inaudible] Democracy.
    Ms. Albright. No question. Very glad to hear you say that, 
since I am chairman of board and I so believe in what NDI and 
IRI are doing and, frankly, when NDI and IRI do things 
together, it proves the theory of the case that you do not have 
to always be the same in order to agree on working together on 
things.
    Dr. Serwer. If I may add----
    Ms. Titus. Anybody else?
    Dr. Serwer. May I add a word?
    Chairman Engel. Certainly. Go ahead.
    Dr. Serwer. I would point in two directions: One is that 
Mini Schengen has been greeted with some skepticism, especially 
in Kosovo, mainly because there are already so many agreements 
that are unimplemented, and that, to me, is a big problem, and 
I think the Americans need to work with the Europeans to 
monitor implementation of all of these agreements, and not 
allow signatures to go unimplemented.
    The second thing I would point to is a regional effort, 
which I think is very important that has not really taken off, 
which is the Regional Reconciliation Commission. This is a 
civil society project that has been proposed to the 
governments, and the governments have not yet accepted. But 
RECOM, the Regional Reconciliation Commission, I think, would 
be a very important addition to regional activities that would 
reduce the hard feelings that persist after the wars of the 
1990's.
    Chairman Engel. Thank you.
    Thank you, Ms. Titus.
    Ms. Wild.
    Ms. Titus. Mr. Chairman, can I just briefly?
    Chairman Engel. Yes.
    Ms. Titus. Mr. Chairman?
    Chairman Engel. Yes.
    Ms. Titus. Can I say just say briefly----
    Chairman Engel. Yes.
    Ms. Titus. I bring you greetings from Betty Ann Sarver. I 
bring you greetings from Betty Ann Sarver in Tucson. I met with 
her this weekend, and she sends her love and respect.
    Chairman Engel. Well, thank you. Thank you. She is a good 
friend. Thank you.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    And thank you to these wonderful panelists for being here.
    I would like to direct my question to Secretary Albright. 
And it is my honor to be asking you this question, Secretary.
    In the aftermath of the cold war, and particularly in 
recent years, we have seen Russia attempt to consolidate its 
influence in the region. We have been at odds with Russia over 
many issues during this time. But as you demonstrated in your 
own government service, it is possible to compartmentalize and 
achieve progress in some areas, despite tensions. Given that 
the United States and Russia together own more than 90 percent 
of the world's nuclear weapons, the world depends on some 
degree of cooperation between our countries.
    In 1999, under your leadership and the leadership of then-
Defense Secretary William Cohen, the United States negotiated 
an agreement to allow for Russia's participation in a 
peacekeeping force in Kosovo, not only diffusing the conflict 
between NATO and Russian forces, but actually creating an 
unprecedented level of cooperation between those two forces.
    So my first question--I guess my first question is: As 
President-elect Biden prepares to take office in a much 
different era for the region, do you see opportunities for 
regional deescalation between the United States and Russia?
    Ms. Albright. Well, I would hope we could. But I think the 
thing we need to work on has to do with the nuclear issues. We 
have had agreements, nuclear agreements, and the New START 
Treaty is about to expire. I think that is very dangerous. I 
think we need to look a little bit at where the other 
agreements that have to do with Europe. The INF needs to be 
dealt with, and that we need to look at those things where we 
have had established relationships in terms of behavior with 
them.
    The issue with the Russians and the Balkans is beyond-
belief complicated, as we have talked about a bit, a part of it 
is that one of the reasons that we had a NATO operation in the 
Balkans, in Kosovo and Bosnia, was that the Russians were going 
to veto anything that we were going to do to the United 
Nations. And so, they have been anything but helpful in terms 
of the Balkans. That is one area.
    I do think, though, that we need to spend time on the 
nuclear issues with them, and the ones where we can come to 
some agreement. I am not sure I ever liked the term ``reset,'' 
but I do think that a new Administration does have a chance to 
really examine the relationship, and not be kind of, you know, 
rose-colored glasses about it, but understand that there are 
areas that we need to try to get some agreement on, and the 
nuclear issue is one of them.
    Ms. Wild. And are there initial steps that you believe the 
incoming Administration should take to test those waters, and 
attempt to establish some degree of trust between the U.S. and 
Russia?
    Ms. Albright. Well, I do think--I do not know, but I do 
hope that there is something done about the New START Treaty 
pretty quickly, because it is about to expire, and once it 
expires, it makes it more complicated, and there certainly are 
people that are coming into the Administration that are very 
knowledgeable about how that all works.
    Ms. Wild. Thank you, Madam Secretary.
    I yield back, Mr. Chair.
    Chairman Engel. Thank you, Ms. Wild.
    Mr. Levin.
    Mr. Levin. Thank you so much, Mr. Chairman.
    It is great to see you there, and I will have much more to 
say about you and your incredible service in the days ahead.
    In this period, I want to focus on the rights of the 
Balkans, and I want to start with Bosnia and Herzegovina. Human 
Rights Watch reports that it has been a decade since Europe's 
top human rights court determined that pieces of Bosnia and 
Herzegovina's Constitution were discriminatory.
    For instance, and I think Dr. Serwer referred to this, it 
is my understanding that members of minority communities, such 
as the Jewish community, are not eligible to run for the 
country's three-member presidency. Bosnia has not changed the 
provisions that have been ruled discriminatory.
    So why has not the Constitution been amended, and is it 
within the realm of possibility that it might be?
    And any, you know, I defer that to any of you that is 
interested in answering.
    Dr. Serwer. It is always in the realm of possibility that 
it might be. It requires a decision by the parliament. It 
requires two-thirds majority in the parliament. It has been 
impossible to get. Why? Because the current system maintains 
the monopoly on power of the three major ethnic groups and the 
political parties that are dominant within those ethnic groups.
    The only thing that is going to change that is a popular 
movement for constitutional reform in Bosnia and Herzegovina. 
The day you see people in the streets, demanding constitutional 
reform, and people at the polls voting for it, that is when you 
will get it. And that has not happened yet; and, frankly, 
whenever there is a popular protest in the streets, the 
dominant ethnic political parties find ways of regressing it, 
and that is where we have to be active in ensuring that that 
does not happen in the future.
    Mr. Levin. So we can provide a lot more leadership here in 
a better direction then, and hope that the people see their way 
to change.
    Let me ask about Kosovo. Again, Human Rights Watch 
reporting here. Last year, inter-ethic tensions were an issue 
in the north of Kosovo, and I see that Roma and Ashkali and 
Balkan Egyptians have faced issues getting personal documents, 
which make it harder for them to get healthcare, education, so 
on. In Serbia, Roma have also faced discrimination, as have 
ethnic Albanians, according to the State Department's human 
rights report.
    So let me start with you, Secretary Albright. Are the 
examples that I have mentioned here instances where the 
discriminatory practices are enshrined in law, like the case of 
the Constitution in Bosnia and Herzegovina, or is it really a 
matter of the law being sound, but it is not being followed?
    Ms. Albright. I think--I do not know the answer in terms of 
whether they are enshrined in law, but I do think that there 
are certain customs and prejudices in a number of places that 
make it easier for those who do not believe in integration, or 
an ethnic way of operating together that allows them to carry 
on what are really outrageous kinds of policies.
    And I know that the issues with the Roma in a number of 
places, wherever, in Central and Eastern Europe and the Balkans 
has been something that has been on the minds of the Human 
Rights Committee for a very long time, as well as various 
groupings that are discriminated against. There is no question.
    And I think the really hard part--and I have had very 
meaningful, I think, and some private, some public discussions 
when I have been in the region, saying, you know, you used to--
you need to remember what people did to you, and you cannot do 
this to the others now. But it has been pretty crazy, you know, 
in terms of trying to persuade them not to have revenge.
    Mr. Levin. Well, though--let me just ask any of you. What 
can the incoming Biden Administration do to foster greater 
respect for human rights for all in the Balkans? In particular, 
how can Congress play a helpful role here?
    I mean, you have been a big champion of the role of 
Congress, Madam Secretary.
    But any of you, you know, what are our marching orders from 
you here to make progress on human rights in the Balkans?
    Dr. Serwer. I would say pay attention. They will listen to 
you, while you are codels, when you go out there. If you raise 
Roma issues, they will be conscious of Roma issues. They pay a 
lot of attention to what the Americans think. I think the 
Secretary is entirely correct that in Kosovo, the minority 
issues are questions of discrimination and prejudice rather 
than law, because the Constitution we wrote for Kosovo is much 
better than the Constitution we wrote for Bosnia and 
Herzegovina. But discrimination exists, and if you raise it 
when you are visiting there, if you insist that the U.S. 
Government raise it, that is going make a big difference in the 
region.
    Mr. Levin. Thank you, Mr. Chairman. I see my time has 
expired. So I appreciate it.
    And I yield back.
    Chairman Engel. Thank you very much, Mr. Levin.
    And now last but certainly not least, Ms. Spanberger.
    Ms. Spanberger. Thank you very, very much, Mr. Chairman. 
Thank you for your leadership in this committee. Thank you for 
all that you have done for this region of the world, and thank 
you for your continued commitment to the role of U.S. foreign 
policy in the world, and certainly our engagement with it 
through this committee. So I appreciate this hearing today, and 
I certainly appreciate your leadership.
    To our witnesses, thank you so much for being with us. I 
have appreciated the conversation, and I am glad to have the 
opportunity to followup with a couple of final questions.
    Others have mentioned today the implications--and I am 
concerned with the implications of recent Russian arms 
transfers. Rep. Kinzinger and I led an NDAA amendment, calling 
for sanctions on Turkey, given its purchase of the Russian made 
S-400 air and missile defense systems, and authorized by 
CAATSA. And this language is included in the NDAA conference 
report that the House is voting on later today.
    And there is reason for similar concern as it relates to 
Serbia. And although it is not a NATO member like Turkey, 
President Vucic's term as President of Serbia has been defined 
by deepening ties with Moscow, including Serb participation in 
Russian military exercises and purchases of Russian military 
equipment. So--and yet, at the same time, the United States has 
sought greater military cooperation with Serbia.
    I am curious--and I will start with you, Secretary 
Albright, and thank you for being here. Beyond considering 
CAATSA sanctions, what are some approaches or recommendations 
that you would have for the Administration for them to consider 
as potential approaches to the U.S.-Serbia relationship, 
recognizing some of the challenges we see that might be posed 
by the Serbian-Russian relationship?
    Ms. Albright. I think that we have to have some real talks 
in terms of Serbia of dealing with the opposition that has not 
really been able to participate in anything that is going on 
there, that not everybody agrees with the way Vucic is doing 
things. And so, I think we need to develop some kind of more 
functional relationship with Serbia.
    I think that the hard part is that the question is whether 
we can make clearer to them that they cannot be a part, and 
will not be a part of the EU, or in terms of the way that they 
want to be seen, if they continue to do the kinds of things 
that they are doing.
    But we do not have--I do not think that we really have very 
stable kinds of talks that we can have with them in an honest 
way, frankly, and that they have gotten away with kinds of the 
things by being, quote, admired for the relationships that they 
have and the kind of governments they have.
    And that is definitely also true in terms of Turkey. If one 
really thinks that Erdogan is somebody that should be, quote, 
``in some kind of a club,'' I think that it makes it very hard 
to stop them in terms of the kinds of things that they are 
doing. They are playing us out, and I think that we need to be 
clearer about what we believe in.
    Ms. Spanberger. And with the incoming Administration, I am 
curious in ways that we could be clearer, in ways that we 
could, you know, recognizing some of the statements made by the 
current Administration, certainly the current President, that 
may have given a pass or may have turned a blind eye to some of 
what we have seen, given the Turkey example, or Serbia.
    I am wondering what are some of the things that we could do 
so that we are hitting that, to some degree, hitting a bit of a 
reset, but then to put real strong parameters in place so that 
we can be able to further define clearly, once we have 
established the parameters of what we deem to be acceptable, 
what our expectations of the U.S.-Serbia relationship and what 
demands or, kind of request, requirements we could put in 
place?
    Ms. Albright. I think part of the thing we have this 
tendency to say, and I do it, ``the Serbs,'' when the bottom 
line is, that they are not all the same, that we need to 
recognize that there are people within Serbia that would like 
to have a different kind of a relationship, and trying to 
operate to some of the civil societies or a variety of ways to 
make that kind of contact.
    I regret the fact that I am probably the most unpopular 
person in Belgrade when I actually, believe it or not, my 
father was the Czechoslovakian ambassador in Yugoslavia and I 
speak Serbian.
    And so, the bottom line is that we lump them together in a 
way where everything is negative, and I think we need to try to 
sort out with whom we can deal under what auspices, and then, 
have some conditionality in terms of the way that we deal, not 
kind of give in to some of their threats that they keep making.
    If they want to be a part of Europe, they have to behave in 
a different way, and we do have a variety of tools. Some are 
diplomatic and some are economic, both positive and negative in 
terms of the trade and aid. I do think it is interesting that 
the new development operation that we have in the U.S. now has 
just started to open offices in Belgrade, and I think there are 
questions about how it can be used in terms of whether one puts 
some conditions on the disbursement of whatever we do in terms 
of helping economically.
    Ms. Spanberger. Thank you, Madam Secretary.
    And, Mr. Chairman, I yield back.
    Mr. Bugajski. Could I just jump in with the NATO-Serbia 
question, Russia question as well, very briefly? NATO does have 
a lot of cooperative activities with the Serbian military. They 
do engage in all sorts of programs. I think that can be 
developed. We do need to focus on that confidence building. 
This is not NATO 1999. This is NATO 2020. We are not going to 
bomb Serbia. We want Serbia eventually to be part of the 
alliance.
    Also, very sternly, I would say the S-400's and any other 
systems that potentially threaten neighbors simply will not be 
allowed. That will automatically trigger sanctions.
    Third, I would say Serbian participation in Russian 
exercises, Slavic Shield or Zapad, whatever it is, have to be 
ended. Participating with a country is that actually practicing 
attacks on NATO does not look good if you want good relations 
with NATO.
    And last, I think Bosnia. Bosnia has, in effect, received 
an annual national program. If Bosnia can move forward toward a 
membership action plan, which they have already been offered, 
and then eventually toward NATO membership, as the Secretary 
said, this will send a very powerful signal to Serbs. As part 
of the Serbian nation, it would then be within NATO. Why not 
the rest?
    Ms. Spanberger. Thank you.
    Thank you very much for your comments, sir, as well.
    And, Mr. Chairman, I yield back. Thank you for allowing us 
to go over.
    Chairman Engel. Okay. Thank you very much.
    This is the conclusion of our hearing.
    But before we go, I would certainly want to thank our 
panelists who were just excellent. I know I have been on this 
committee for over 30 years, and this is one of the best panels 
we have had. I think that everyone who listened and 
participated learned something, and I think that this was very 
important.
    One of the things that it shows me, again, is how important 
American involvement is around the world, that if we do not 
involve ourselves, then we can only blame ourselves if things 
do not go right. I think it is very important.
    We have not mentioned today Albania. I just want to mention 
it at the end. You know, Albania, when I first got there 
shortly after the old Communist government failed, Enver Hoxha 
was the leader at the time, and I remember going there and 
people were just so happy to see an American Member of 
Congress. It was just unbelievable.
    And if you think about the cold war, and you think about 
the most devastating, or the most heavy-handed regime, you 
could argue that it was the regime in Albania where it was just 
impossible to have any kind of freedom. They were fed, you 
know, the Albanians people were fed a diet of anti-Americanism 
for 49 or 50 years. And the wonderful thing is that they did 
notbelieve any of it. Like most Albanians, they wanted to be 
close to the United States and work with us.
    I always think that is a miracle that for 49 years they 
were only fed a bunch of lies about us, and did notbelieve it. 
And when I said that people of Kosovo love Americans, I think 
the people of Albania do, too, and I think it is a real success 
story. And, again, it was the United States getting involved.
    So we need get involved. If we are not there, someone else 
will move in. It could be China, it could be Russia, but we 
need to be there.
    So I want to thank all my colleagues. This is probably the 
last words I am going to say officially in the committee.
    Oh, tomorrow we have something. Okay.
    Well, it has been an honor and a pleasure to be a member of 
this committee for so many years, and it has been an honor and 
a pleasure to chair this committee and as our panelists, who 
were excellent, can see that we have a lot of participation and 
a lot of people who are very interested in the Balkans around 
the world, of course.
    And I want to say, finally, what I said many times with Mr. 
McCaul and before. I said it with Chairman Royce. I consider 
this committee the most bipartisan committee in Congress. And I 
think it is very important, because we think that partisanship 
should stop at the river's edge, the water's edge, that we need 
to always be united because the things that affect us are much 
more common for both of us. Our differences are not as common 
as the things with which we agree, and we agree that the United 
States needs to get involved.
    So I want to thank our witnesses. I want to thank my good 
friend, Madeleine Albright, whom I just marvel every time I 
hear her talk. She is just so smart and knows so much about the 
region and other things as well.
    And our other witnesses, thank you so much to you. Also, I 
learned a great deal from you as well.
    So I want to thank everybody, and the hearing is now 
adjourned.
    [Whereupon, at 1:11 p.m., the committee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
